                                     




TIGTA Semiannual Report to Congress   3   October 1, 2007 through March 31, 2008
                                                       




                            TABLE OF CONTENTS

Inspector General’s Message to Congress ................................................................................ 1

TIGTA’s Highlights ..................................................................................................................... 3

TIGTA’s Profile ............................................................................................................................     5
    Statutory Mandate ..................................................................................................................         5
    Organizational Structure ........................................................................................................            6
    Authorities ..............................................................................................................................   6

Promote the Economy, Efficiency, and Effectiveness of Tax Administration .................... 7
    Audit Emphasis Areas for FY 2008 ....................................................................................... 7
    Systems Modernization of the IRS ........................................................................................ 7
    Tax Compliance Initiatives .................................................................................................... 9
    Security of the IRS ................................................................................................................. 11
    Providing Quality Taxpayer Service Operations ................................................................... 14
    Complexity of the Tax Law ................................................................................................... 16
    Human Capital ...................................................................................................................... 17
    Taxpayer Protection and Rights ............................................................................................. 18

Protect the Integrity of Tax Administration ............................................................................ 21
     TIGTA’s Investigative Performance Model ......................................................................... 22
     Employee Integrity.................................................................................................................. 23
     Employee and Infrastructure Security .................................................................................... 27
     External Attempts to Corrupt Tax Administration ................................................................ 29

Awards and Special Achievements ............................................................................................ 35

Audit Statistical Reports .............................................................................................................. 37
     Reports with Questioned Costs .............................................................................................. 37
     Reports with Recommendations that Funds Be Put to Better Use ......................................... 38
     Reports with Additional Quantifiable Impact on Tax Administration .................................. 39

Investigations Statistical Reports ............................................................................................... 41
     Significant Investigative Achievements ................................................................................. 41
     Status of Closed Criminal Investigations ............................................................................... 42
     Criminal Dispositions ............................................................................................................ 42
     Administrative Dispositions on Closed TIGTA Investigations ............................................. 42




TIGTA Semiannual Report to Congress                                iii            October 1, 2007 through March 31, 2008
                                                  




APPENDICES
Appendix I – Statistical Reports – Other .................................................................................. 43
    Audit Reports with Significant Unimplemented Corrective Actions .................................... 43
    Other Statistical Reports ........................................................................................................ 50

Appendix II – Audit Products .................................................................................................... 51

Appendix III – TIGTA’s Statutory Reporting Requirements .............................................. 55

Appendix IV – Section 1203 Standards ..................................................................................... 61

Appendix V – Data Tables Provided by the IRS ..................................................................... 63
    IRS Memorandum .................................................................................................................. 63
    Report of Employee Misconduct, Summary by Disposition Groups .................................... 64
    Report of Employee Misconduct, National Summary ........................................................... 65
    Summary of Substantiated I.R.C. § 1203 Allegations Recorded in ALERTS ...................... 66




TIGTA Semiannual Report to Congress                           iv            October 1, 2007 through March 31, 2008
                             




                                    INSPECTOR
                                GENERAL’S MESSAGE
                                  TO CONGRESS
        Each year, millions of Americans send a portion of their income to the U.S. Treasury
to support the programs of the Federal Government. These taxpayers must be confident that
their taxes are fairly and accurately assessed, the tax system is efficient and effective, and
that the personal and financial information they disclose is adequately protected.
Maintaining that confidence is an essential element of our nation’s financial success,
especially considering that our country is at war and great economic needs are placing an
even greater burden on government resources.

       In 1998, Congress created the Treasury Inspector General for Tax Administration
(TIGTA) to ensure that the nation’s tax system is effectively, efficiently, and fairly
administered, and that the Internal Revenue Service (IRS) is held to a high level of
accountability. I remain dedicated to upholding this important mission.

        I am proud of our accomplishments and pleased to present TIGTA’s Semiannual
Report to Congress. This report highlights our most notable audit and investigative work
conducted from October 1, 2007, to March 31, 2008, and summarizes the statistical results
of that work.

        During this reporting period, TIGTA completed 83 audits identifying hundreds of
thousands of dollars in total cost savings and more than $151 million in increased or
protected revenue. TIGTA’s Office of Chief Counsel has reviewed and made
recommendations on the impact of 175 proposed or existing regulations and laws affecting
tax administration.

        In October, TIGTA issued its annual assessment of the top ten management
challenges confronting the IRS. This report presents a sampling of TIGTA’s audit work in
each of those challenge areas. I remain especially concerned about helping the IRS meet
three of its most critical challenges: the modernization of its aging computer systems,
improving taxpayer compliance, and protecting the sensitive personal and financial
information of 140 million taxpayers.

       The IRS’ business modernization program is in its tenth year and remains a long-
term challenge for the IRS. Thus far, the program has cost more than $2.5 billion.
According to the IRS’ original plan, the modernization program should have been past the
halfway point this year. While the IRS has improved its project management and contract



TIGTA Semiannual Report to Congress         1         October 1, 2007 through March 31, 2008
                             



oversight, the program remains behind schedule, over budget, and is not delivering as
promised. For example, the backbone of the modernization program, the Customer
Accounts Data Engine, will ultimately replace the IRS’ Individual Master File. The IRS
originally planned to complete this replacement in 2005; the estimated date of completion is
now 2012.

        Ensuring equitable tax compliance among individual taxpayers and businesses is a
vital component of tax administration and the IRS’ efforts to narrow the nation’s estimated
$345 billion annual tax gap. Fairness and necessity dictate that everyone and every
business – large and small – fully pay the taxes they owe accurately and on time.
Nevertheless, the IRS faces significant challenges in obtaining more complete and timely
data on the various components of the tax gap through non-compliance with the nation’s
tax laws. The IRS must continue to seek accurate measures of these individuals and
businesses that do not pay and must obtain better research to determine what actions are
most effective in addressing non-compliant taxpayers.

       TIGTA issued several audits during this reporting period that illustrate the need for
the IRS to better protect the security of taxpayer data. The reports made numerous
recommendations, including improving protection of the IRS’ computer system from
external hackers and from employees and contractors who have unnecessary access to
information. During this reporting period, TIGTA completed 915 employee integrity
investigations, of which 247 involved unauthorized access to confidential taxpayer
information.

        I look forward to working with the newly confirmed Commissioner of Internal
Revenue Douglas Shulman as he strives to administer an efficient, effective, and equitable
tax system. TIGTA is committed to working with the IRS, Congress and other stakeholders
to ensure that these important goals are met.

                                         Sincerely,



                                      J. Russell George
                                      Inspector General




TIGTA Semiannual Report to Congress         2         October 1, 2007 through March 31, 2008
                             




                TIGTA’S HIGHLIGHTS
Examples of high profile cases from the Office of Investigations:

Former CEO Pleads Guilty to Bribing a Government Official
In a Department of Justice (DOJ) press release, Rod J. Rosenstein, the U. S. Attorney for the
District of Maryland, praised the Treasury Inspector General for Tax Administration
(TIGTA), the Federal Bureau of Investigation, IRS Criminal Investigation Division (CID),
the Defense Criminal Investigative Service, and several other Offices of Inspector General,
for their assistance in an investigation that led to a guilty plea by Michael B. Holiday. Mr.
Holiday is the former chief executive officer and owner of a company that provided security
to Federal buildings in Maryland and California. According to court documents, Mr.
Holiday pleaded guilty to bribery and tax evasion in connection with a scheme involving
three Federal Government contracts worth more than $130 million that were awarded to his
company.

IRS Employees Indicted for Fraudulently Obtaining HUD Funds
On October 2, 2007, Cheryl Esters and Michelle Parker were indicted in the U. S. District
Court for the Northern District of Texas for obtaining U. S. Department of Housing and
Urban Development (HUD) Section 8 funds by fraud. Both individuals were indicted based
on a criminal investigation conducted jointly by TIGTA and HUD’s Office of Inspector
General.

The Housing and Community Development Act of 1974 makes Federal funds available to
local housing authorities to assist low-income individuals in obtaining housing. This act
includes the Section 8 Rental Voucher Program, which authorizes financial assistance to
low-income individuals. Section 8 payments subsidize the rent of low-income families to
help them afford housing in the private sector market.

According to court documents, Ms. Esters and Ms. Parker were both IRS employees when
they fraudulently obtained HUD Section 8 payments. They each obtained these payments
by concealing their receipt of income as Federal employees while applying for HUD
Section 8 rental assistance payments on a form entitled “Personal Declaration and
Questionnaire for Rental Assistance.” Court documents state that Esters fraudulently
obtained $34,869 from 2002 through 2006, and Parker fraudulently obtained $26,950 from
2002 through 2005, in HUD Section 8 payments.

John Steven Romero Arrested for Assaulting IRS Employee
On November 16, 2007, TIGTA special agents arrested John Steven Romero in response to
an arrest warrant issued on November 15, 2007 by the U. S. District Court, Southern
District of California. Mr. Romero was arrested for assault on an Internal Revenue agent
while engaged in the performance of his official duties.



TIGTA Semiannual Report to Congress         3        October 1, 2007 through March 31, 2008
                             




According to court documents, on November 15, 2007, the revenue agent went to Mr.
Romero’s residence to serve a summons. Mr. Romero approached the revenue agent in an
apparent attempt to use force against him, slapping the summons from the agent’s hand and
verbally assaulting him with a profane threat of bodily harm. These actions caused the
revenue agent to fear that Mr. Romero’s threatened use of force was imminent.


Examples of accomplishments from the Office of Audit:

Taxpayers Victimized by Tax-Related Identity Theft
The IRS has yet to make effective use of available third-party sources to address tax-related
identity theft issues. In Fiscal Years 2004 and 2005, the IRS recommended for prosecution
only 100 cases that included a charge of identity theft. During Calendar Years 2005 and
2006, the Federal Trade Commission Identity Theft Clearinghouse received 92,570
employment-related and tax fraud identity theft complaints. Also, the IRS has not
eliminated the burden it places on taxpayers victimized by identify theft. A TIGTA analysis
of Tax Year (TY) 2003 and 2004 identity theft cases in the IRS Automated Underreporter
system disclosed that 449 (3.6 percent of the 2003 cases) were closed for the same
underreported issue in both years.

Identification of Unreported Self-Employment Taxes Needs to Improve
The IRS needs to strengthen its process to identify and then audit tax returns that are
potentially subject to the self-employment tax. Return examiners did not always apply the
correct processing code to tax returns that had apparent self-employment income and no tax
withholding. Even when correctly coded, the subject tax returns were not always examined.
An analysis of a sample of TY 2003 returns that indicated qualifying net income of at least
$2,000, but no reported self-employment tax, concluded that the IRS could have assessed at
least $19 million annually in additional Social Security and Medicare taxes.

Oversight of Treasury HSPD-12 Initiative was Ineffective
The IRS volunteered to be the lead Department of the Treasury agency in delivering a
Homeland Security Presidential Directive-12 solution for issuing and processing
department-wide identification media. However, ineffective contract management has led
to contractors not being held accountable for work performed; the absence of documentation
for incurred program costs; and the expenditure of $3.5 million for unnecessary hardware,
software, and services.

IRA Contributions and Distributions Are Not Adequately Monitored
Taxpayers could be treated inequitably due to the absence of effective IRS monitoring and
resolution of Individual Retirement Account (IRA) activities. TIGTA found that IRS
controls were not effective in assessing excise taxes against both taxpayers who contribute
more than the maximum annual amount to their traditional IRA or Roth IRA accounts as
well as against individuals aged 70½ who had not begun taking minimum distributions from
their traditional IRAs. A major contributing factor is the significant number of erroneous
documents submitted by IRA financial custodians.


TIGTA Semiannual Report to Congress         4        October 1, 2007 through March 31, 2008
                                  




                       TIGTA'S PROFILE


T
       he Treasury Inspector General for Tax Administration (TIGTA) provides
       independent oversight of the Department of the Treasury matters involving
       Internal Revenue Service (IRS) activities, the IRS Oversight Board, and the IRS
       Office of Chief Counsel. Although TIGTA is placed organizationally in the Treasury
Department and reports to the Secretary of the Treasury and to Congress, TIGTA functions
independently of all other offices and bureaus within the Department.

TIGTA’s work is devoted to all aspects of
activity related to the Federal tax system
as administered by the IRS. By
                                                       STATUTORY MANDATE
identifying and addressing the IRS’                •   Protect against external attempts to
management challenges, implementing the                corrupt or threaten IRS employees.
President’s Management Agenda and the              •   Provide policy direction and conduct,
priorities of the Department of the                    supervise, and coordinate audits and
Treasury, TIGTA endeavors to protect the               investigations related to IRS programs
public’s confidence in the tax system.                 and operations.
                                                   •   Review existing and proposed legislation
TIGTA’s organizational structure is                    and regulations related to IRS programs
comprised of five functional offices: the              and operations, and make
Office of Audit; the Office of                         recommendations concerning the impact
Investigations; the Office of Inspections              of such legislation or regulations.
and Evaluations; the Office of Chief               •   Promote economy and efficiency in the
Counsel; and the Office of Mission                     administration of tax laws.
Support (see chart on page 6).                     •   Prevent and detect fraud and abuse in
                                                       IRS programs and operations.
TIGTA conducts audits and investigations           •   Inform the Secretary of the Treasury
designed to:                                           and Congress of problems and
• promote the economy, efficiency, and                 deficiencies identified and of the progress
    effectiveness of tax administration; and           made in resolving them.
• protect the integrity of tax
    administration.




TIGTA Semiannual Report to Congress            5          October 1, 2007 through March 31, 2008
                                  




                       ORGANIZATIONAL STRUCTURE


                                               Inspector
                                                General
               Chief Counsel
                                             Principal Deputy
                                            Inspector General




                                   Deputy                   Deputy                 Associate
 Deputy Inspector                 Inspector                Inspector               Inspector
 General for Audit               General for              General for             General for
                                Investigations          Inspections and         Mission Support
                                                          Evaluations




                                       AUTHORITIES
 TIGTA has all of the authorities granted               investigate potential criminal offenses
 under the Inspector General Act of 1978,               under the internal revenue laws. In
 as amended.1 TIGTA has access to tax                   addition, the IRS Restructuring and
 information in the performance of its tax-             Reform Act of 1998 (RRA 98)2 amended
 administration responsibilities. TIGTA                 the Inspector General Act of 1978 to give
 also has the obligation to report potential            TIGTA statutory authority to carry
 criminal violations directly to the                    firearms, execute and serve search and
 Department of Justice. TIGTA and the                   arrest warrants, serve subpoenas and
 Commissioner of Internal Revenue have                  summonses, and make arrests as set forth
 established policies and procedures                    in Section 7608(b)(2) of the Internal
 delineating responsibilities to                        Revenue Code (I.R.C.).


                                                        2
                                                          Public Law No. 105-206, 112 Stat. 685
                                                        (codified as amended in scattered sections of
                                                        2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19
                                                        U.S.C., 22 U.S.C., 23 U.S.C., 26 I.R.C., 31
 1
     5 U.S.C.A. app. 3 (West Supp. 2007).               U.S.C. 38 U.S.C., and 49 U.S.C.).


TIGTA Semiannual Report to Congress              6          October 1, 2007 through March 31, 2008
                             




       PROMOTE THE ECONOMY,
          EFFICIENCY, AND
           EFFECTIVENESS
       OF TAX ADMINISTRATION

T     IGTA’s Office of Audit (OA) strives to
      promote the economy, efficiency, and
      effectiveness of tax administration.
TIGTA provides recommendations to improve
                                                            AUDIT EMPHASIS
                                                                 AREAS
IRS systems and operations while ensuring fair
and equitable treatment of taxpayers.                       FOR FISCAL YEAR
TIGTA’s comprehensive, independent                             (FY) 2008
performance and financial audits of IRS
programs and operations primarily address
mandated reviews and high-risk challenges                     •   Systems Modernization of
facing the IRS.                                                   the IRS
                                                              •   Tax Compliance Initiatives
Each year, TIGTA identifies and addresses the                 •   Security of the IRS
major management challenges facing the IRS.                   •   Providing Quality
TIGTA places audit emphasis on statutory                          Taxpayer Service
coverage required by RRA 98, and areas of                         Operations
concern to Congress, the Secretary of the                     •   Complexity of the Tax
Treasury, the Commissioner of Internal Revenue, and               Law
other key stakeholders.                                       •   Human Capital
                                                              •   Taxpayer Protection and
The IRS’ implementation of audit recommendations
                                                                  Rights
results in cost savings and increased or protected
revenue, reduction of taxpayer burden, and protection
of taxpayer rights and entitlements, taxpayer privacy and security, and IRS resources.

The following summaries highlight significant audits completed in each of the above areas
of emphasis during this six-month reporting period.


Systems Modernization of the IRS
The Business Systems Modernization program is a complex effort to modernize IRS
technology and related business processes. Modernizing the IRS’ technology has been an
ongoing challenge. According to the IRS, this effort involves integrating thousands of
hardware and software components while replacing outdated technology and maintaining
the current tax system. The IRS’ goal of providing high-quality, efficient, and responsive
information services to its operating divisions is heavily dependent on modernizing its core
computer business systems while maintaining the existing systems. It also relies on the


TIGTA Semiannual Report to Congress         7        October 1, 2007 through March 31, 2008
                               



security of those systems, the buildings that house them, and the safety of the people who
operate them.

Aging Computer Hardware
The IRS estimates that it should spend $180 million annually to adequately maintain and
replenish its computer hardware, and has initiated several actions to address the risks
associated with the aging computer hardware. However, the information used to estimate
the size and effect of the aging computer hardware could be improved. The IRS
established a goal to obtain increased resources to address the aging computer hardware as
one of its highest priorities, but permanent program funding remains uncertain and a
disciplined investment management governance process is needed for all infrastructure
initiatives and activities. As a result, the IRS might not fund the highest priority projects to
ensure that investment decisions result in the most efficient use of available resources on
behalf of taxpayers.

The IRS continues to emphasize that the core of tax administration processing relies
heavily on critical systems designed in the 1960s. Because of the inherent limitations of
these systems, the IRS’ ability to accomplish its mission and provide better service to
taxpayers is hindered. The IRS also reports that the risk to tax administration is
significant, because critical business systems are currently operating on aged computer
hardware (i.e., hardware that has exceeded its useful life). At the beginning of FY 2006,
the aged hardware was estimated to be valued at $276 million, with an additional
$161 million in hardware becoming aged during the same fiscal year.

TIGTA recommended that the IRS:
   1) implement procedures to improve inventory data accuracy and completeness, and
       periodically prepare an updated aged computer hardware estimate;
   2) improve the integration of asset/inventory management with incident and problem
       management;
   3) permanently allocate necessary funds to maintain and replenish the aging
       hardware;
   4) ensure that End of Life Replacement activity is included in the governance
       process; and
   5) establish a process for monitoring and reporting Sustaining Infrastructure
       Program accomplishments to address the aging computer hardware issue.

IRS management agreed with four of these five recommendations and stated that it planned
to take appropriate corrective actions. The IRS did not agree to permanently allocate the
necessary funds within its budget to maintain and replenish the aging computer hardware,
but agreed to realign the base budget whenever appropriate, subject to availability. TIGTA
disagrees with the IRS’s decision and believes it should honor the commitment made to the
IRS Oversight Board that the current $45 million being spent on infrastructure would be
augmented by reallocating an additional $45 million from program efficiencies in Fiscal
Years 2006 through 2008.
TIGTA Report Reference No. 2008-20-002
The Account Management Services Project


TIGTA Semiannual Report to Congress           8        October 1, 2007 through March 31, 2008
                             



The IRS is continuing to modernize its databases to provide immediate access to account
data, enable real-time transaction processing, and ensure daily account settlement to
improve customer service and business results. The Account Management Services
(AMS) project was initiated in May 2006 and has been chartered to address these needs.
The project’s objective is to provide an integrated approach to view, access, update, and
manage taxpayer accounts. This is accomplished by providing IRS employees with the
tools to access information quickly and accurately in response to complex customer
inquiries and to update taxpayer accounts on demand.

Reviews of the initial AMS releases showed that the project team successfully
implemented project management processes and activities, which included project
justification, contract, risk, configuration, performance, and transition management.

The AMS Project Management Plan defines the project, the scope of work to be
performed, and the planned methodology for managing project activities. The plan also
identifies the capabilities that AMS Release One must implement for it to be considered
complete. The AMS project team successfully planned work schedules, identified and
addressed potential risks to project development, and coordinated with appropriate staff to
implement initial release capabilities. Although the AMS project team is on schedule to
make the proposed processing capabilities available, its implementation is dependent on
the IRS’s Modernization and Information Technology Services organization’s abilities to
integrate these project capabilities into taxpayer account processing.

As a result of the AMS project team’s effective implementation of the project management
practices, TIGTA did not make any recommendations. In response to the draft report, IRS
management noted the comments and observations, acknowledging the successful
implementation of the project management processes for the AMS Release One.
TIGTA Report Reference No. 2008-20-053


Tax Compliance Initiatives
Tax compliance initiatives include administering tax regulations, collecting the correct
amount of tax for businesses and individuals, and overseeing tax-exempt and government
entities for compliance. While increasing voluntary compliance and reducing the tax gap
are currently the focus of IRS initiatives, the IRS is facing significant challenges in
obtaining more complete and timely data and developing the methods necessary for
interpreting the data. It must continue to seek accurate measures for the various
components of the tax gap and the effectiveness of the actions taken to reduce the gap.
Broader strategies and better research are needed to determine what actions are most
effective in addressing noncompliance.

Unreported Self-Employment Taxes
According to the Government Accountability Office, outlays from the main trust funds of
the Social Security and Medicare programs are projected to exceed revenues in the next
decade. As the tax collector for these programs, the IRS must ensure that self-employed
taxpayers meet their tax responsibilities by assessing and collecting the proper amount of


TIGTA Semiannual Report to Congress         9         October 1, 2007 through March 31, 2008
                                 



self-employment taxes. Self-employment tax is estimated to make up about $39 billion
(72 percent) of underreported employment taxes, or 11 percent of the total gross tax gap,
making it one of the largest components of the tax gap.

Unreported Self-Employment Taxes
According to the Government Accountability Office, outlays from the main trust funds of
the Social Security and Medicare programs are projected to exceed revenues in the next
decade. As the tax collector for these programs, the IRS must ensure that self-employed
taxpayers meet their tax responsibilities by assessing and collecting the proper amount of
self-employment taxes. Self-employment tax is estimated to make up about $39 billion
(72 percent) of underreported employment taxes, or 11 percent of the total gross tax gap,
making it one of the largest components of the tax gap.1

TIGTA’s review of self-employment tax found that IRS procedures were inconsistent for
identifying U.S Individual Income Tax Returns (Form 1040) reporting income on line
212 that are potentially subject to the self-employment tax. Also, there was a significant
problem with assigning an audit code to returns with potentially unreported self-
employment taxes. The code was either improperly assigned when a return had no self-
employment tax issue, or was not assigned when a self-employment tax issue was present.
Overall, 25 percent of the returns sampled by TIGTA had potential self-employment tax
issues, but were either not selected for audit or were surveyed (i.e., the audits were closed
with little or no examination of the returns by the IRS Examination function), even though
the taxpayers had not properly reported self-employment tax. Approximately 43 percent of
these returns had refunds available to offset all or part of the self-employment tax
liabilities.

TIGTA recommended that the IRS:
   1) emphasize the importance of assigning the correct processing code to returns
       with potential self-employment tax liabilities and provide additional training to
       tax examiners to improve the review of income reported on Form 1040, line 21;
   2)   strengthen the processes for reviewing returns upon receipt for potential unpaid
       self-employment taxes, especially the processes for including the statutory
       income indicator in the Wage and Tax Statement (Form W-2) database and for
       assigning an audit code when a self-employment tax issue is present; and
   3) reconsider the decision to cancel its corrective action to address TIGTA’s
       previous recommendation that it immediately work significant unreported

          self-employment tax cases that have refunds pending, but no response – or an
          inadequate response – to any letter issued by the IRS.
1
  The “gross tax gap” is the difference between the amount of tax that taxpayers should pay under
the tax law and the amount they actually pay on time. In February 2006, the IRS released updated
compliance estimates, showing that the gross tax gap was $345 billion in tax year 2001. This
estimate however, does not take into account taxes that were paid voluntarily but paid late, or
recoveries from IRS enforcement activities. Taking these factors into account, the “net tax gap”
was an estimated $290 billion in tax year 2001.
2
  Line 21 “Other Income” is used to report income that is not reported elsewhere on the tax return
or on other schedules.


TIGTA Semiannual Report to Congress            10         October 1, 2007 through March 31, 2008
                                 




IRS management agreed with the first two recommendations and, as noted, disagreed with
the third. The IRS planned to explore the possibility of expanding existing returns
processing training material issued in January 2008. However, IRS management stated
that the parameters could not be accurately identified to ensure that it would not be
withholding the refunds of taxpayers who were not subject to self-employment taxes.
Based on the findings of this and previous audits, TIGTA maintained that it was feasible
for the IRS to begin examining the returns of taxpayers who appear to owe a significant
amount of self-employment tax, have an available refund, and have not responded to
contact letters from the IRS. TIGTA encouraged the IRS to move in that direction.
TIGTA Report Reference No. 2008-30-001

Return Delinquency Cases and Unfiled Returns
In Calendar Year 2006, the IRS reported that it issued more than 1.6 million return
delinquency notices to business taxpayers who had not filed required tax returns by the
return due date. TIGTA determined that some IRS operational internal controls had been
effectively established. However, some of the return delinquency cases reviewed were not
resolved accurately and in a timely manner, and the IRS needed to improve its computer
program to identify business taxpayers who might be liable for employment taxes.

TIGTA’s recommendations included that the IRS:
    1) ensure that its reviews to assess team managers’ practices in performing
         technical case reviews be completed quarterly; and
    2) revise procedures to require full compliance checks for delinquent employment
         tax returns of “in business” employers3.

IRS management agreed with all of the report recommendations and has taken or agreed to
take corrective actions.
TIGTA Report Reference No. 2008-30-027


Security of the IRS
Millions of taxpayers entrust the IRS with sensitive financial and personal data stored and
processed by its computer systems. Recent reports of identity theft from both the private and
public sectors have heightened awareness of the need to protect this data. The risks that
sensitive data could be compromised and that computer operations could be disrupted
continue to increase. These risks are due to internal factors, such as the increased
connectivity of computer systems, the increased use of laptop computers, and external
factors, such as the volatile threat environment resulting from increased terrorist and hacker
activity.
To maintain adequate security of sensitive taxpayer data, the IRS must implement controls at
all levels of its computer environment to guard against external intruders as well as malicious



3
    Active business taxpayers who paid wages to employees during the calendar year.



TIGTA Semiannual Report to Congress             11         October 1, 2007 through March 31, 2008
                               



employees and contractors who have been given access to IRS systems to carry out their
responsibilities. For example, controls are needed at the perimeter to keep unauthorized
persons from intruding into IRS systems, the network architecture used to transmit data back
and forth, and the applications and databases used to store taxpayer data.

Network Security
Because the IRS sends sensitive taxpayer and administrative information across its networks,
network routers and switches must have sufficient security controls to deter and detect
unauthorized use. Access controls for IRS routers were not adequate, and reviews to
monitor security configuration changes were not conducted to identify inappropriate use. A
disgruntled employee, contractor, or hacker could reconfigure routers and switches to disrupt
computer operations and steal taxpayer information in a number of ways, including diverting
information to unauthorized systems.

The IRS had authorized 374 accounts for employees and contractors to access routers and
switches in performing system administration duties. Of these, 141 (38 percent) did not have
proper access authorization. Authorizations for 86 of the 141 employee and contractor
accounts had been provided at some point in time, but the authorizations had expired at the
time of our review. However, TIGTA could not find router access authorizations for the
other 55 employee and contractor accounts. Of particular concern was that 27 of the
55 employees and contractors had accessed the routers and switches to change security
configurations.

To authenticate users, the IRS employs a security application that requires users to enter an
account name and password. TIGTA found that users circumvented this control by setting
up 34 unauthorized accounts, which appeared to be shared-user accounts. Any person who
knew the password to these accounts could have changed configurations without
accountability and with little chance of detection. For this reason, the IRS requires that
shared accounts be used only on a limited basis and that they be subjected to special
authorization controls. However, during FY 2007, 4.4 million (over 84 percent) of the
5.2 million accesses to the routers were made by the 34 user accounts. Audit trail reviews
necessary to detect security events were also not being conducted.

TIGTA recommended that the IRS:
    1) clarify responsibilities for providing authorizations for employees and contractors
         to access the sensitive network components;
    2) eliminate unnecessary shared accounts;
    3) improve the testing of authentication controls to identify configuration
         weaknesses; and
    4) ensure that audit trails are reviewed to detect unauthorized actions on the routers
         and switches.

The IRS agreed with the recommendations and is taking corrective actions.
TIGTA Report Reference No. 2008-20-071
Database Security




TIGTA Semiannual Report to Congress          12         October 1, 2007 through March 31, 2008
                             



The IRS stores its taxpayer, financial, and other data in more than 2,100 databases.
However, it continues to have recurring information security weaknesses that make its
databases susceptible to penetration attacks. Due to the sensitivity of these data, the IRS
could be a target for malicious users who are intent on committing identity theft and fraud.

High-risk weaknesses continue to exist, and sufficient corrective actions have not been
taken. TIGTA scanned IRS networks and determined that 11 percent of approximately
1,900 databases had one or more installation accounts with a default or blank password. A
total of 369 installation accounts, including 26 containing powerful database administrator
privileges, had default or blank passwords.

Databases found with default or blank passwords during our scans included those that
contained personally identifiable tax information. Malicious users could exploit accounts
with default or blank passwords to steal taxpayer identities and carry out fraud schemes.

TIGTA made several recommendations, including ensuring that security training is
provided to employees with key security responsibilities and improving the process for
identifying and correcting accounts with blank or default passwords by expanding the
scanning criteria. IRS management agreed with all of the recommendations in the report
and plans to take appropriate corrective actions.
TIGTA Report Reference No. 2008-20-029

Homeland Security Presidential Directive-12
The total estimated cost to build and maintain a Homeland Security Presidential
Directive-12 (HSPD-12) system for the Department of the Treasury is $421 million over
14 years. As the lead bureau for the Treasury Department, the IRS is charged with
ensuring that the funds are spent prudently. The IRS estimated it had obligated
$30 million as of June 2007.

The IRS did not administer contracts effectively and could not provide documentation to
support the actual costs charged to the HSPD-12 program. The Program Management
Office did not effectively manage the contracts for the HSPD-12 program. Statements of
work were too general to hold contractors accountable for work performed, and the IRS
paid contractors without verifying that work was performed. The IRS could not provide
supporting documentation for the actual costs spent on the program, and TIGTA found that
at least $3.5 million had been spent on unneeded hardware, software and services.

In addition, the IRS did not follow its established governance procedures for overseeing
the HSPD-12 program because it did not prepare a formal business case for the program.
An internal business case was prepared by the Program Management Office, but it did not
comply with IRS business case requirements, and it was never provided to the Treasury
HSPD-12 governance committees overseeing the program. Additionally, program
management made statements to Treasury Department and IRS officials that were
inaccurate. As a result, the governance committees did not have sufficient information
with which to make critical management decisions for the program.




TIGTA Semiannual Report to Congress         13         October 1, 2007 through March 31, 2008
                               



TIGTA recommended that the IRS require that future task orders prepared by the
HSPD-12 Program Management Office separate tasks by function, and that the Program
Manager maintain documentation sufficient to support all HSPD-12 program costs and
assign costs to specific task orders. TIGTA also recommended that the IRS coordinate
with the Treasury Department to evaluate the possibility of combining its Public Key
Infrastructure efforts with those of the General Services Administration. The IRS should
also ensure that executive steering committees responsible for providing oversight to
information technology projects enforce the use of IRS Enterprise Life Cycle requirements.

IRS management agreed with the recommendations and plans to take several steps to
improve management of the HSPD-12 Program Management Office.
TIGTA Report Reference No. 2008-20-030


Providing Quality Taxpayer Service Operations
Since the 1990s, the IRS has increased its delivery of quality customer service to
taxpayers. In its current strategic plan, the IRS’s first goal is to improve taxpayer service.
However, since the late 1990s, the IRS has gradually allocated more resources to the
collection, examination, and criminal investigation functions and fewer resources to
taxpayer service functions. As a result of this resource shift and other factors, in July
2005, Congress requested that the IRS develop a five-year plan that would include an
outline of which services the IRS should provide and how it would improve services for
taxpayers. In response, the IRS developed the Taxpayer Assistance Blueprint to help it
focus on providing the appropriate types and amounts of service. However, the IRS is
already facing challenges with the Blueprint. As it moves forward, inaccuracies and
inconsistencies will put the Blueprint at risk of improperly aligning service content,
delivery, and resources with taxpayer and partner expectations.4

Carryback Loss Claims
When taxpayers have significant losses from business activities or natural disasters, their
deductions may exceed their income for the tax year, resulting in a net operating loss.
Taxpayers can file claims to apply (or to carry back) these losses to income in prior years,
which result in refunds of taxes previously paid. The IRS processed 60,865 individual
carryback loss refunds totaling approximately $1.2 billion in FY 2007.

The IRS has processes to review these claims. However, it does not always identify and
correct the errors before the claims are processed and the refunds are paid. TIGTA reviewed
a statistical sample of 84 carryback loss refund claims that posted to the IRS Master File
between August 1, 2004, and July 30, 2005, and determined that 42 (50 percent) contained at
least one error. The IRS did not correct the errors on 24 (57 percent) of the 42 claims,
resulting in $732,941 in additional refunds due to taxpayers and $1,126,501 in additional tax
due to the IRS. The majority of the errors on the refund claims fell into three common



4
 The Taxpayer Assistance Blueprint Phase 2 Was Generally Reliable, but Oversight of the Survey
Design Needs Improvement (Reference Number 2008-40-059, dated February 5, 2008)


TIGTA Semiannual Report to Congress          14          October 1, 2007 through March 31, 2008
                              



categories: Alternative Minimum Tax (AMT), charitable contributions deductions, and IRS
changes to the originally filed loss year tax return.

Unclear tax form instructions and tax publications appeared to contribute to taxpayer errors.
IRS procedures for working carryback claims were also vague and open to interpretation.
Therefore, TIGTA recommended that the IRS revise the applicable instructions for claiming
the carryback loss as they related to the charitable contributions deduction and the AMT.
TIGTA also recommended that the IRS change the instructions for Forms 10455 and 1040X6
as they pertained to carryback losses, requiring taxpayers to attach the AMT form for each
carryback year.

TIGTA also recommended that the IRS:
    1) revise the procedures for working carryback refunds to improve the identification
         and resolution of errors before the refunds were paid;
    2) change the procedures for verifying the carryback claim to require employees to
         ensure that the AMT form is attached for each carryback year; and
    3) work to modify the Desktop Integration tool for the alternative tax net operating
         loss deduction.

IRS management agreed with most of TIGTA’s recommendations and has taken or agreed to
take appropriate corrective actions. Management partially agreed with the recommendation
to revise the instructions for Forms 1045 and 1040X, and TIGTA agreed that the planned
corrective action was adequate. The IRS disagreed, however, with the recommendations
requiring taxpayers to attach the AMT form for each carryback year and requiring that IRS
employees ensure that the form is attached. The IRS indicated that requiring the taxpayer to
attach this form would impose an unreasonable burden and would likely be viewed as a
violation of the Paperwork Reduction Act of 1995. TIGTA believes that the only additional
taxpayer burden would be to attach a copy of the Form 62517 for each loss year to the
carryback claim. Taxpayers are already required to complete the Form 6251, and they
voluntarily included the form on most of the claims filed.
TIGTA Report Reference No. 2008-40-062

Administration of Taxes Used to Maintain the Nation’s Highways
The Heavy Highway Vehicle Use Tax (Heavy Vehicle Use Tax) is a prepaid tax the IRS
collects. Combined with other Federal excise taxes, it is used to provide more than
$1 billion annually in Federal highway transit funds to the States.

The IRS recognizes the unique challenges and complexity related to the Heavy Vehicle
Use Tax and offers a number of assistance options for taxpayers. The Alternate Proof of
Payment Program is based on an agreement between the IRS and State Departments of
Motor Vehicles that allows taxpayers to simultaneously file, pay the Heavy Vehicle Use
Tax, and register their vehicles. This program can reduce the risk of noncompliance
because the tax return and associated payment are provided at the time of registration;

5
  Form 1045, Application for Tentative Refund
6
  Form 1040X, Amended U.S. Individual Income Tax Return
7
  Alternative Minimum Tax—Individuals


TIGTA Semiannual Report to Congress          15         October 1, 2007 through March 31, 2008
                               



however, it currently operates in only 11 States.

The IRS has developed a process that enables Heavy Highway Vehicle Use Tax Return
(Form 2290) filers to electronically file their tax returns because of a law requiring
taxpayers with 25 or more vehicles to electronically file. As of December 9, 2007, the IRS
had received 1,569 electronically filed Forms 2290. Although electronic filing benefits
both taxpayers and the IRS, costs and unfamiliarity with this option may be limiting
participation.

TIGTA recommended that the IRS:
    1) encourage more State participation in the Alternate Proof of Payment Program;
    2) develop a process to identify States participating in the program;
    3) ensure that agreement provisions are followed; and
    4) promote the benefits of electronic filing to all Form 2290 filers to increase
         electronic filing participation.

IRS management agreed with the recommendations and plans to take appropriate
corrective actions.
TIGTA Report Reference No. 2008-40-089


Complexity of the Tax Law
Simplicity, transparency, and ease of administration are interrelated and desirable features
of a tax system. Over the years, the Federal tax system, especially the Federal income tax,
has become more complex, less transparent, and subject to frequent revision. Tax
complexity and frequent revisions to the Internal Revenue Code make it more difficult and
costly for taxpayers who want to comply with the system’s requirements, and for the IRS
to explain and enforce the tax laws. Tax law complexity results in higher costs for both tax
administration and tax compliance. Simplification and reform have the potential for
reducing the tax gap by billions of dollars.

Individual Retirement Accounts
As more taxpayers reach retirement age, their incomes will be transitioning from wages to
investment and retirement benefits. Individual Retirement Accounts (IRA) are a key,
tax-deferred way for individuals to save for retirement and are an increasingly important
way for individuals to roll over savings from pension plans. In 2005, estimated Roth IRA
assets totaled $147 billion, and traditional IRA assets totaled $3.26 trillion. TIGTA found
that taxpayers are sometimes contributing more than is allowed into tax-deferred or tax-
free accounts, and they are not taking taxable distributions when required, which could
result in lost tax revenues.

The IRS needs to strengthen its procedures and controls for ensuring that taxpayers and
IRA custodians comply with IRA rules. Failure to ensure correct reporting by IRA
custodians could hinder the IRS’s ability to identify excess contributions. Moreover, lack
of adequate monitoring and enforcement could result in lost tax revenues when taxpayers



TIGTA Semiannual Report to Congress         16         October 1, 2007 through March 31, 2008
                                   



make excess contributions or fail to pay excise taxes on required minimum distributions
that are not taken.

TIGTA recommended that the IRS:
    1) conduct analyses for identifying and resolving erroneous IRA Contribution
         Information (Form 5498);
    2) develop and implement strategies to bring noncompliant taxpayers back into
         compliance;
    3) utilize information from the Forms 5498 to identify taxpayers who are subject to
         required minimum distributions and compare this information to subsequent tax
         returns to determine whether distributions were reported; and
    4) require IRA custodians to compute and provide to the IRS the estimated
         required minimum distributions so this information could be used as part of the
         Automated Underreporter Program.

The IRS agreed with the recommendations and plans to take appropriate corrective actions.
TIGTA Report Reference No. 2008-40-087 (Sensitive But Unclassified)8


Human Capital
The Federal workforce is aging, and agencies are facing not only retirements and staff
turnover, but also the unique challenges of the 21st century. The IRS recognizes that it
must be prepared to respond to an increasing and more demanding population, a more
global and multilingual environment, and an increasing number of taxpayers who have
complex financial holdings, and the means and motives to resist paying their taxes.9 In
addition, the IRS, along with other Federal agencies, is slowly moving toward changing
pay, classification, and performance management systems to transition to a more market-
based and performance-oriented culture.

Workers’ Compensation Program
The IRS cash outlays for workers’ compensation claims continue to increase, driven by
factors such as cost of living increases and higher costs for medical equipment,
medications, and treatment. These outlays represent financial obligations to care for
injured employees and can be considered a cost of doing business. However, if the costs
are not properly managed and increase significantly, obligations could ultimately affect the
amount of money the IRS has available for enhancing the delivery of service to the
taxpaying public.



8
  The term “Sensitive But Classified” originated with the Computer Security Act of 1987. It defines
SBU as “any information, the loss, misuse, or unauthorized access to or modification of which
could adversely affect the national interest or the conduct of Federal programs, or the privacy to
which individuals are entitled under Section 552a of Title 5, United States Code (USC) (the Privacy
Act) but which has not been specifically authorized under criteria established by executive order or
an act of Congress to be kept secret in the interest of national defense or foreign policy.” – Chapter
III, Section 23 of the Department of the Treasury Security Manual (TD P 15-71).
9
  IRS Publication No. 3744, IRS Strategic Plan: 2005-2009, (revised 6-2004).


TIGTA Semiannual Report to Congress              17          October 1, 2007 through March 31, 2008
                              



TIGTA found that control processes needed to be established to ensure that the IRS was
not overpaying workers’ compensation benefits. TIGTA questioned more than $1 million
in charges that included benefits that were paid subsequent to Social Security
Administration records indicating claimants had died.

In addition, TIGTA determined that steps needed to be taken to ensure that required IRS-
wide procedures were followed when initiating claims and that a more strategically
oriented approach needed to be implemented for returning employees back to work
following an injury. A review of case files associated with 40 claims found problems in
31 of the claim cases. Among other things, TIGTA found that injury investigations were
not thoroughly conducted and some questionable claims were not challenged while others
were improperly challenged.

Increasing from $1.4 billion in 1990 to nearly $2.4 billion in 2005, the rising costs of
workers’ compensation has caused concern throughout the Federal government. TIGTA
analyzed practices implemented by agencies that were particularly effective at controlling
costs and returning claimants to work. In contrast to these practices, TIGTA found that the
IRS return-to-work efforts were more reactive, less strategically oriented, and heavily
reliant on its first-line managers. Moreover, specific policies and procedures had yet to be
implemented to coordinate and collaborate across functional lines to assist in transitioning
more employees back to the workplace.

TIGTA recommended that the IRS:
    1) develop and implement control processes for reviewing the accuracy of costs in
         chargeback reports;
    2) obtain evidence to support the claim that benefits are paid only to current or
         former IRS employees; and
    3) seek reimbursement for the compensation paid subsequent to claimants’ deaths
         and on denied claims.

TIGTA also recommended that the IRS implement a control to provide assurances that
required procedures are completed in the claims process, and establish a more strategic
approach to enhance return-to-work efforts.

IRS management agreed with the recommendations and has taken or will be taking
corrective actions.
TIGTA Report Reference No. 2008-30-056


Taxpayer Protection and Rights
Identity theft is a growing national problem that increasingly affects tax administration.
Individuals who steal taxpayer identities affect the tax system in two ways:
    • Fraudulent Tax Returns – An individual may use another person’s identity [name
        and Social Security Number (SSN)] to file a fraudulent tax return in order to steal a
        tax refund. Subsequently, the lawful taxpayer would have to prove his or her
        identity to correct his or her tax liability or refund.


TIGTA Semiannual Report to Congress         18         October 1, 2007 through March 31, 2008
                                    




      •   Misreporting of Income – An individual may use another person’s name and SSN
          to obtain employment. Because income earned is reported to the IRS by the
          employer, it will appear to the IRS that the lawful taxpayer did not report all of his
          or her income on his or her tax return.

In October 1998, the Identity Theft and Assumption Deterrence Act10 was enacted. It
expanded the criminalization of fraud in connection with identification documents to cover
the unlawful transfer and use of identity. The law defines identity theft as when someone
“…knowingly transfers or uses, without lawful authority, a means of identification of
another person with the intent to commit, or to aid or abet, any unlawful activity that
constitutes a violation of Federal law, or that constitutes a felony under any applicable
State or local law.”

Employment-Related and Tax Fraud Identity Theft
The IRS has not placed sufficient emphasis on employment-related and tax fraud identity
theft. The IRS’s Criminal Investigation Division investigates identity theft crimes only if
they are committed in conjunction with other criminal offenses having a large tax effect.
As a result, the IRS has mainly focused on combating identity theft through public
outreach. In addition, current processes have been inadequate in reducing burden for
taxpayers victimized by identity theft. The IRS still lacks the comprehensive data needed
to determine the impact identity theft is having on tax administration.

TIGTA recommended that the IRS:
    1) develop and implement a strategy to address employment-related and tax fraud
         identity theft, including coordinating with other Federal agencies;
    2) update the Automated Underreporter System to display prior year case closing
         codes on the individual case screens and create identity theft closing codes for
         multiple issue cases; and
    3) revise Withholding Compliance function case selection criteria to incorporate
         special handling of identity theft victims.

IRS management generally agreed with all of the recommendations. The IRS is
developing a five-year strategy for the Privacy, Information Protection, and Data Security
Office that will include identity theft issues. However, due to confidentiality and
disclosure restrictions, management does not plan to more actively identify or stop
individuals from committing employment-related identity theft or to notify employers of
their employees’ actions. Management did, however, provide a copy of TIGTA’s draft
audit report to the Office of the Assistant Secretary of the Treasury for Tax Policy to
evaluate whether or not to seek a legislative remedy.

In January 2008, the IRS implemented the universal identity theft indicator to mark
taxpayer accounts when a taxpayer self-identifies as an identity theft victim and provides
the proper documentation to verify his or her identity. This code enables the IRS to
centrally track identity theft incidents and eliminates the need to update the Automated

10
     Pub. L. No. 105-318, 112 Stat. 3007 (codified in part at 18 U.S.C. Section 1028).


TIGTA Semiannual Report to Congress               19          October 1, 2007 through March 31, 2008
                              



Underreporter System case screens and develop closing codes for multiple issue cases.
The IRS plans to develop business rules for various programs to apply unique treatments to
cases in which the universal identity theft indicator is present.

TIGTA acknowledges the IRS’s efforts to improve business processes to reduce the burden
on identity theft victims. Effective use of the universal identity theft indicator should
reduce the number of multiple contacts made with taxpayers. However, TIGTA is still
concerned about the lack of action on employment-related identity theft cases and details
in the IRS’s response concerning the responsible officials and implementation dates for
some of its planned actions. In addition, because the Federal Trade Commission Identity
Theft Clearinghouse is the sole national repository of consumer identity theft complaints, it
should be an important source of data for the IRS’s Criminal Investigation Division.
TIGTA Report Reference No. 2008-40-086




TIGTA Semiannual Report to Congress         20         October 1, 2007 through March 31, 2008
                            




       PROTECT THE INTEGRITY OF
         TAX ADMINISTRATION
TIGTA’s Office of Investigations (OI) has a unique statutory mandate to protect the tax
revenue that funds the operations of our Federal government. TIGTA’s work touches
every citizen of the United States every day, because the revenue stream it protects
provides for the health, safety, welfare and common defense of every American.

TIGTA’s statutory mandate is substantially broader than that of most Offices of Inspector
General. While all Offices of Inspector General combat fraud, waste, and abuse, TIGTA is
also statutorily charged with protecting the integrity of Federal tax administration.

To satisfy its broad mandate, TIGTA performs a variety of functions, including:
   •   Investigating allegations of criminal violations that adversely impact Federal tax
       administration;
   •   Investigating allegations of serious administrative misconduct by IRS employees;
   •   Initiating proactive work to detect criminal or administrative misconduct in the
       administration of IRS programs;
   •   Working closely with IRS employees, tax practitioners, and community groups to
       educate them about indicators of integrity problems or fraud in IRS programs;
   •   Operating an aggressive Criminal Intelligence Program to proactively identify and
       mitigate threats to IRS employees or to the continuity of IRS operations;
   •   Investigating assaults and threats against IRS employees, facilities and operations;
   •   Working proactively to identify and mitigate threats to IRS information systems;
   •   Protecting the increasingly important electronic environment in which Federal tax
       administration is conducted;
   •   Investigating fraud, waste, and abuse involving IRS procurements and contracting;
   •   Maintaining a national complaint center accessible by telephone or the Internet that
       serves as the hub for receiving and addressing complaints of fraud, waste, abuse
       and misconduct involving IRS employees, programs and operations;
   •   Maintaining a robust forensic science program to analyze physical and digital
       evidence gathered during investigations;
   •   Operating the land mobile radio program on behalf of the Treasury Department and
       all of its bureaus; and
   •   Employing specialized technical and investigative equipment, training, and
       techniques to enhance investigative outcomes.




TIGTA Semiannual Report to Congress        21         October 1, 2007 through March 31, 2008
                                  




    TIGTA’S INVESTIGATIVE PERFORMANCE MODEL




TIGTA has employed a progressive Performance Model to focus investigative efforts on its three
primary areas of investigative responsibility: employee integrity; employee and infrastructure
security; and external attempts to corrupt Federal tax administration. Since its introduction, the
Performance Model has served both to focus TIGTA’s investigative activities and to demonstrate
the value of its investigations to external stakeholders.

Over time, the Performance Model has proven to be a far more powerful management tool than
initially anticipated. Because the Performance Model focuses on TIGTA’s core mission-related
objectives, it has become an essential tool for gauging almost every aspect of TIGTA’s
investigative operations. The use of performance measures adopted to track investigative
activity under the Performance Model helps quantify investigative productivity and produces
reliable statistical data to better inform budgetary planning, staffing decisions and training needs.

The objective, measurable data derived by using the performance measures:
   • drives budget planning within OI;
   • helps identify special agent training needs;




TIGTA Semiannual Report to Congress             22          October 1, 2007 through March 31, 2008
                                 




    •   aids in detecting imbalances in the distribution of human capital resources by analyzing
        the data produced; and
    •   assists in making staffing decisions.

The Performance Model has become an indispensable management tool as the growing body of
data collected by using it has been analyzed and transformed into information for making better
strategic organizational decisions. Use of the Performance Model has shown that TIGTA needs
to focus more investigative resources on the electronic environment in which Federal tax
administration increasingly operates, and in which new threats to IRS operations are rapidly
emerging and known threats are continually evolving.

During this reporting period, OI has substantially realigned its existing human capital resources
within the Strategic Enforcement Division (SED) to combat the increasing volume of Internet-
based scams and phishing schemes that corrupt the integrity of online IRS programs and
operations. By the end of the next reporting period, OI will also have completed a rigorous
training program for all special agents in the area of investigating crimes in the electronic
environment.


Employee Integrity
IRS employee misconduct affects all Americans because it undermines the Federal revenue
stream that provides for the health, safety, welfare and common defense of the nation.

TIGTA takes its responsibility to preserve the integrity of Federal tax administration very
seriously. TIGTA investigates such employee misconduct allegations such as extortion, bribery,
theft, abusive treatment of taxpayers, false statements, financial fraud, and unauthorized access to
confidential taxpayer information (UNAX). These investigations also include contractor and tax
practitioner misconduct and fraud.

Crimes committed by IRS employees within the IRS electronic environment include diverting
taxpayers’ returns by manipulating IRS information systems, and manipulating IRS information
so that an IRS employee or another person can receive an inflated refund.

UNAX is a persistent vulnerability for the IRS and the Federal tax system. The IRS is entrusted
with properly maintaining and safeguarding sensitive taxpayer information, including personally
identifiable information, the loss or misuse of which could result in identity theft and other
fraudulent activity. Because the Federal tax system is based on voluntary compliance, public
confidence that personal and financial information given to the IRS for tax administration
purposes will be kept confidential is essential to that system. Even when an unauthorized access
does not involve unauthorized disclosure of taxpayer information by an IRS employee, these
cases undermine taxpayer confidence in the tax administration system. TIGTA has specific
programs to protect the confidentiality, integrity, and availability of this sensitive information.

To protect the privacy of taxpayer data, SED employs a variety of audit trail and forensic data
analysis tools to proactively identify potential UNAX violators and to identify systemic problems
or weaknesses. Once SED develops an investigative UNAX lead, it is forwarded to the


TIGTA Semiannual Report to Congress             23         October 1, 2007 through March 31, 2008
                                   



appropriate TIGTA field office for local investigation. TIGTA’s UNAX program investigates
unauthorized access of the Integrated Data Retrieval System1 by utilizing proactive and reactive
methods. Over the past 10 years, TIGTA special agents have investigated an average of
470 UNAX cases per year. Over half of those investigations are proactively generated utilizing
data mining techniques by TIGTA’s forensic data analysts. Other investigations are initiated
because of complaints or allegations made by taxpayers or IRS officials. Of the UNAX
investigations proactively generated by TIGTA, over 90 percent result in substantiated UNAX
violations. The UNAX allegations that are investigated as a result of taxpayer or IRS
management complaints are fully investigated by leveraging the forensic data analysts’ expertise.
Of the UNAX violations investigated this fiscal year, 30 percent have an affiliated criminal
violation in conjunction with the UNAX (e.g., identity theft, bribery, or theft of government
funds through improper adjustments of IRS accounts).

As the IRS continues its modernization efforts and expands its services to taxpayers by
developing new automated systems, TIGTA continues to stress the importance of incorporating
robust audit trail capabilities as an integral defense against threats to the rapidly expanding IRS
electronic environment. This electronic environment in which sensitive taxpayer information is
stored and flows will continue to expand rapidly, and UNAX will pose an ever-increasing threat
to the security of taxpayer information. Although TIGTA provided 1,251 fraud awareness
presentations last year and the IRS annually trains all of its employees about UNAX, there is no
indication that UNAX violations will subside. In fact, UNAX will likely increase as the IRS
designs new systems that allow easier access to sensitive tax information for improved response
to taxpayer inquiries. During this reporting period, TIGTA provided fraud awareness
presentations to more than 15,000 IRS employees. In addition, TIGTA completed 915 employee
integrity investigations, of which 247 were UNAX investigations. These investigations resulted
in six criminal prosecutions and 539 administrative disciplinary actions against IRS employees.

The following cases are examples of IRS employee and contractor integrity investigations that
TIGTA conducted during this period:

Ten Indicted for Illegally Obtaining Confidential Tax Information
On December 5, 2007, ten people were indicted in the U. S. District Court, Western District
of Washington at Tacoma, for conspiracy, wire fraud, and aggravated identity theft. Six of
the defendants were charged with solicitation of Federal tax information.

According to court documents, defendants Emilio A. Torrella and Brandy N. Torrella owned and
operated BNT Investigations in Belfair, Washington, which provided private investigative and
background research services. BNT Investigations employed defendant Steven W. Berwick as
an office manager and researcher. Allegedly, the Torrellas and their employees, including
Mr. Berwick, telephoned State and Federal agencies, including the IRS, posing as the
individuals about whom they were seeking information. Through such fraudulent
telephone calls, the Torrellas and their employees obtained personal wage information,
employment histories, Social Security benefits information, Federal tax records, and
medication and hospitalization records.

1
    The Integrated Data Retrieval System is currently the IRS’ primary system of taxpayer records.


TIGTA Semiannual Report to Congress              24          October 1, 2007 through March 31, 2008
                                      




        INVESTIGATIVE SUPPORT PROVIDED BY TIGTA’S
            STRATEGIC ENFORCEMENT DIVISION
The Strategic Enforcement Division (SED) is the component of the Office of Investigations that leverages
computer experience and expertise to identify electronic vulnerabilities and gather computer evidence to
enhance TIGTA investigations. Identifying unauthorized access to taxpayer information by IRS employees
(UNAX) continues to be one of the significant accomplishments of this group. As the IRS continues its
modernization efforts, the potential for increased UNAX violations by IRS employees and others exists.
SED will be challenged to maintain pace with this potential increase.

                                         SED-UNAX PROGRAM
What is UNAX? – UNAX is the term that refers to the Unauthorized Access to taxpayer information by IRS
employees, and other Federal and State employees and private contractors who may have authorized
access to IRS information in the performance of their official duties.

What Is TIGTA’s Role? – TIGTA is responsible for detecting and investigating UNAX violations in
accordance with the Taxpayer Browsing Protection Act of 1997. Pursuant to Title 26, it is a criminal offense
to willfully inspect or disclose Federal tax information without proper approval. The provisions of Title 18
prohibit the intentional, unauthorized, or exceeding authorized access to any information stored on a
government-owned computer.

Why Investigate UNAX? – UNAX can lead to identity theft and undermines taxpayers’ trust in the Federal
tax system to safeguard confidential tax information in its custody.

How Are UNAX Violations Found? – TIGTA uses a computer-based detection program that analyzes
access to tax accounts, and identifies those with potential UNAX issues. Cases with confirmed UNAX
issues or any other potential criminal violations are forwarded to TIGTA special agents in the field for further
investigation. Employees found to have committed UNAX violations are subject to Federal prosecution,
termination of employment, or other disciplinary action.

Is the TIGTA UNAX Program Successful? – Yes. In the last 10 years, TIGTA special agents have
investigated more than 4,700 cases of potential UNAX violations, resulting in more than 990 adverse
personnel actions taken by the IRS. An additional 883 employees resigned from the IRS during the
investigation or before personnel action could be taken. In addition, 176 employees have been criminally
prosecuted for UNAX violations.

Have UNAX Violations Decreased? – No. There has not been a noticeable decrease in the number of
violations. Each year, TIGTA special agents initiate approximately 470 UNAX investigations, and the rapidly
expanding IRS electronic environment creates the potential for a great increase in UNAX incidents. TIGTA
continues to carefully monitor its allocation of human resources devoted to the UNAX program in an effort to
optimize its effectiveness in this critical area.

During this six-month reporting period, the UNAX Program has:
• identified and analyzed 245 leads of potential unauthorized access;
• referred 120 criminal cases to TIGTA agents for investigation;
• resulted in 12 criminal prosecutions and 86 adverse administrative actions against IRS employees; and
• substantiated 92 percent of investigative leads referred to the field.




  TIGTA Semiannual Report to Congress               25          October 1, 2007 through March 31, 2008
                              



Court documents allege that from approximately January 2004 to May 2007, the
defendants conspired to obtain confidential tax, medical, and employment information
through false pretenses on about 12,000 individuals. To obtain this information,
defendants Victoria J. Tade, Megan M. Ososke, Robert Grieve, Ziad N. Sakhleh,
Patrick A Bombino, Esaun G. Pinto, Sr., and Darci P. Templeton, all private
investigators throughout the nation, submitted requests to the Torrellas and their
employees, including Berwick, to uncover confidential employment, financial, tax, or
medical information of individuals they were investigating on behalf of other clients.
When submitting these requests, the private investigators provided the Torrellas with
the subjects’ identifying information such as full names, dates of birth, addresses, and
Social Security numbers. The individuals being investigated were not aware that their
identifying information was being disseminated and used in this manner, nor did they
give permission to anyone to obtain the confidential information.

IRS Employee Sentenced for Unauthorized Access of Computer Data
On December 20, 2007, Patricia Moreno was sentenced in the U. S. District Court, Eastern
District of California to one year of probation, 50 hours of community service, a $500 fine,
and a $25 penalty assessment for unauthorized access of computer data.

According to court documents, between approximately March 17, 2003, and
April 22, 2004, Ms. Moreno, in her capacity as a tax examining technician for the IRS,
exceeded her authorized access and obtained confidential information contained in the IRS
tax database. Specifically, Ms. Moreno accessed the confidential tax records of an
individual on at least 85 different occasions.

Former IRS Employee Sentenced for Unauthorized Inspection of Tax Returns and
Return Information
Diane Snyderman was sentenced on January 8, 2008, in the U.S. District Court of New
Jersey, to four years probation, six months of home confinement, a $10,000 fine, and a
$25 special assessment fee on one count of unauthorized inspection of tax return
information.

On August 9, 2007, Ms. Snyderman, who was formerly employed by the IRS, pleaded
guilty in the United States District Court for the District of New Jersey, to the unauthorized
inspection of tax returns and return information.

According to court documents, an investigation was initiated after SED established that on
or about April 22, 2005, Ms. Snyderman inspected return information of an individual who
was a Certified Public Accountant (CPA) and who had prepared Ms. Snyderman’s tax
returns for the past 30 years. SED also established that between about August 1997 and
about September 2006, Ms. Snyderman engaged in a variety of unauthorized activities and
accesses that were outside the scope of her duties. According to court documents, Ms.
Snyderman inspected tax returns and/or return information for approximately
56 individuals who were all clients of her CPA. Ms. Snyderman also inspected tax returns
and return information relating to a real estate sales firm listed on her IRS employment



TIGTA Semiannual Report to Congress          26         October 1, 2007 through March 31, 2008
                             



application as her former employer, and tax returns and return information relating to her
friends and relatives, and her friends’ relatives.

IRS Employee Pleads Guilty to Unauthorized Inspection of Tax Return Information
On December 19, 2007, Ericka Duson pleaded guilty in the U.S. District Court for the
Eastern District of California to unauthorized inspection of tax return information.

According to court documents, between January 3, 2000, and January 24, 2004,
Ms. Duson, as an employee of the IRS, unlawfully and without authorization accessed and
inspected the tax return information of approximately 183 private individuals.

Latitia Simmons Indicted on Theft and Forgery Charges
On December 20, 2007, Latitia Simmons was indicted in the Circuit Court of the
Eighteenth Judicial Circuit, DuPage County, Illinois, on theft and forgery charges.

According to court documents, between September 26, 2002, and September 12, 2006,
Ms. Simmons committed theft of United States currency valued between $300 and
$10,000 that was the property of the IRS. In addition, Simmons allegedly committed
forgery with the intent to defraud by knowingly delivering employee time reports to the
IRS that were purported to have been made by another individual.


Employee and Infrastructure Security
Congress recognized the importance of protecting the Federal Government’s ability to
collect tax revenue when it created TIGTA. The agency accomplishes its statutory
mandate to protect Federal revenue collection by identifying and investigating threats to
IRS employees, physical infrastructure, and the electronic environment in which Federal
revenue collection largely occurs.

Assaults and Threats against IRS Employees
TIGTA aggressively responds to assaults or threats against IRS employees and submits
information regarding dangerous taxpayers to the IRS Office of Employee Protection,
which administers the IRS Potentially Dangerous Taxpayer Program.

The following case is an example of an assault and threat investigation TIGTA conducted
during this reporting period:

Lisa Blechman Arrested for Assaulting IRS Employee
On November 14, 2007, TIGTA special agents apprehended Lisa Blechman in response to
an arrest warrant issued on November 13, 2007, by the United States District Court,
Central District of California. Ms. Blechman was arrested for intentionally assaulting an
employee of the IRS by unleashing two dogs while the employee was performing her
official duties.




TIGTA Semiannual Report to Congress         27         October 1, 2007 through March 31, 2008
                             



According to court documents, on October 30, 2007, an IRS employee went to
Ms. Blechman’s residence to serve an IRS summons. When the IRS employee identified
herself, Ms. Blechman became visibly agitated and began yelling and swearing at her.
After the IRS employee taped the summons to the front door, Ms. Blechman told the IRS
employee that if she did not remove the summons from the door, Ms. Blechman was going
to come outside with her dogs. As the IRS employee began to walk to her vehicle,
Ms. Blechman opened the front door and let the dogs out in an attempt to scare and
intimidate the IRS employee.

Threats to the IRS Electronic Environment
Crimes within the IRS electronic environment include those committed by IRS employees
and those committed externally. Examples of external crimes include refund theft and
impersonation of IRS employees to obtain personal information that is then used to divert a
taxpayer’s refund or to commit identity theft.

SED is staffed with data analysts, computer specialists, and criminal investigators with the
technical expertise to monitor, probe and investigate in the evolving electronic
environment. Investigators and computer programmers assigned to the System Intrusion
Network Attack Response Team (SINART) investigate attempts to interfere with the
security, integrity, and availability of IRS information systems by external sources. They
respond to computer intrusion incidents, investigate IRS network vulnerabilities, and
conduct system-wide penetration tests. Agents assigned to the Computer Investigative
Support Program provide forensic analysis of computers and other media to develop
evidence in support of TIGTA investigations. TIGTA has also coordinated efforts with the
IRS to protect taxpayer information within the IRS electronic environment. The SINART
provides security assessments of the IRS network.

Igor Rodov Pleads Guilty to Aiding and Abetting Commission of Wire Fraud
According to the U. S. Attorney for the District of Connecticut, Igor Rodov, 31, a citizen
of Belarus residing in Connecticut, pleaded guilty on Friday, February 29, 2008, before
Senior U. S. District Judge Ellen Bree Burns in New Haven to one count of aiding and
abetting the commission of wire fraud.

According to documents filed with the U. S. Federal Court and court statements, beginning
in January 2006, and continuing until November 2006, Mr. Rodov aided and abetted
another individual engaged in a scheme to defraud the U. S. Department of the Treasury
and 120 individual taxpayers of money by means of materially false and fraudulent
representation. The other individual was able to obtain the personal information of the
individual taxpayers, without consent, including names, addresses, Social Security
numbers, and wage information. The individual then used that personal information to file
Federal income tax returns electronically for those taxpayers using two Web sites. Those
filings were done without the consent of the taxpayers. The individual electronically
signed each of the filings and, in so doing, fraudulently represented that he was the
individual taxpayer named in the filings.




TIGTA Semiannual Report to Congress         28         October 1, 2007 through March 31, 2008
                             



Mr. Rodov knowingly associated and participated in this scheme to defraud by opening
several bank accounts in his name with several banks in Connecticut. Subsequently, the
fraudulently obtained tax refunds were deposited into the bank accounts opened and
maintained by Mr. Rodov. Mr. Rodov faces a maximum term of imprisonment of 20 years
and a fine of up to $250,000.


External Attempts to Corrupt Tax Administration
TIGTA has a statutory obligation to investigate external attempts to corrupt or impede the
administration of internal revenue laws. Such attempts include:
   • Taxpayers offering bribes to IRS employees to reduce their tax liabilities;
   • The use of fraudulent IRS documentation to advance criminal activity;
   • Impersonation of IRS officials (in person, telephonically, or via the Internet); and
   • Corruption of IRS programs or operations through procurement or contractor fraud.

The increasing reliance on electronic communications and the need to maintain a safe
electronic operating environment for the huge task of collecting the nation’s revenue
present a tremendous challenge to the IRS.

TIGTA is particularly concerned about phishing schemes that rely on e-mail messages
falsely purporting to relate to legitimate IRS operations. Some of the messages claim to be
from the IRS; others purport to be from legitimate businesses seeking to assist taxpayers in
dealing with the IRS. These messages have one thing in common: they solicit personally
identifiable information such as Social Security numbers and banking information, which
is then used to commit identity fraud. Some tell the recipient that the IRS wants to reward
them for having filed early, and their personal and banking information is needed to
electronically deposit the money. These schemes also take the form of telephone calls to
taxpayers, often from untraceable pre-paid cell phones, notifying the taxpayer of a refund
and requesting personal information in order to expedite the deposit electronically.

During this reporting period, the IRS reported 1,176 phishing incidents. TIGTA continues
its efforts to educate the public about these abusive schemes and to ensure that misuse of
the IRS name, impersonation of an IRS employee, and identity theft incidents are
minimized.

The following cases are examples of external attempts to corrupt Federal tax
administration that TIGTA conducted during this period:

Wilfredo Ventura Sentenced for Bribery of IRS Agent
On December 17, 2007, Wilfredo Ventura was sentenced in the U. S. District Court,
Southern District of Texas, to 21 months of imprisonment, three years of supervised
release following imprisonment, and a $100 criminal monetary penalty for bribery of a
public official.

According to court documents, on or about October 16, 2006, Mr. Ventura knowingly
offered $500 to an IRS revenue agent, with the intent to influence the agent to aid in


TIGTA Semiannual Report to Congress         29         October 1, 2007 through March 31, 2008
                              



committing a fraud against the United States, in violation of the agent’s lawful duty as a
public official.

Civil Complaint Filed Against Keith O’Brien Slade and Controlled Quality
Corporation for Approximately $499,782 in False Claims Against IRS
On October 31, 2007, a civil complaint was filed by the U. S. Attorney’s Office in the
U. S. District Court, District of Columbia, against the Controlled Quality Corporation, a
defunct company formerly doing business in the District of Columbia, and its owner,
Keith O’Brien Slade, to recover triple damages and civil penalties under the False Claims
Act, 31 U.S.C. §§ 3729-3733.

According to court documents, from approximately June 2001 to February 2004, the
defendants had a contract with the Government Printing Office (GPO) to provide printing
services. The defendants entered into a contractual agreement with the GPO beginning June
9, 2001, whereby the defendants agreed to prepare and duplicate various documents for GPO
customer agencies. The IRS was one of those customer agencies. During the contract
period, the defendants were found to be using a subcontractor to perform 100 percent of the
printing services awarded to the defendants by the GPO. The defendants then prepared and
certified vouchers for payment attesting that they alone prepared and performed the work.
These invoices also contained inflated prices used in the production of the printed work for
the IRS. The IRS made at least 28 procurements from the defendants; the total amount the
IRS paid to the defendants was approximately $499,782, while the defendants paid the
subcontractor a sum of approximately $61,678.

Ruth Fallis Sentenced to Three Years of Incarceration and Restitution in Amount of
$803,192 to IRS
On October 30, 2007, Ruth Fallis was sentenced in the U. S. District Court for the District of
Delaware to 36 months of incarceration, three years of supervised release following
imprisonment, restitution in the amount of $803,192 to the IRS and $258,534 to an
individual, and a special assessment of $200. Ms. Fallis was sentenced after pleading guilty
on March 26, 2007, to bank fraud and wire fraud.

According to court documents, between approximately December 8, 2001, and October
2005, Ms. Fallis wrote and negotiated 75 unauthorized checks totaling $557,044.93 from the
account of her employer, the Perry Anthony Design Group (PADG). Between
approximately January 2002 and October 2005, she kept at least $504,681.22 of PADG’s
cash receipts that she was responsible for depositing into PADG’s account. In order to
conceal and execute her scheme to steal from PADG, beginning in 2002, and continuing
until the third quarter of 2005, Ms. Fallis deliberately failed to make the quarterly Federal
tax deposits on behalf of PADG. In or around the summer of 2005, when the IRS
attempted to contact PADG to discuss the lack of payments, Ms. Fallis diverted the IRS’s
calls and notices to herself so that the owner of PADG would not learn of the tax liability
and her scheme to steal from PADG. On June 23, 2005, July 21, 2005, and September 9,
2005, Ms. Fallis diverted the IRS’s calls by contacting the IRS in Virginia via telephone
from her home in Delaware and impersonating the wife of the owner of PADG.



TIGTA Semiannual Report to Congress          30         October 1, 2007 through March 31, 2008
                             




                 TAX PREPARER INVESTIGATIONS
   TIGTA’s efforts to protect the integrity of Federal tax administration extend to
   investigations of impropriety in the tax preparer community. TIGTA investigations in
   this area include bribery; extortion; fraud; harassment; threats and assaults against
   IRS personnel and facilities; improper disclosure; procurement fraud; theft of
   remittance payments; misuse of Treasury Department names, symbols or emblems;
   and impersonation of IRS officials.

   TIGTA’s proactive outreach strategy to tax professionals includes an effort to partner
   with the tax preparer and practitioner community (enrolled and un-enrolled) in
   preventing fraud in the tax system. TIGTA has worked diligently to educate tax
   professionals by providing awareness presentations during professional conferences
   such as IRS Tax Forums, and by providing input to professional publications utilized
   by the tax practitioner community. During this reporting period, TIGTA provided
   40 presentations to 4,662 tax preparers and practitioners.




   Dallas, Texas TIGTA Special Agent William Coull (left) and Crowley Police
   Department Investigator Richard Chapman (right) executing a search warrant on a
   Crowley, Texas tax preparation business known as Tax Solutions on
   October 22, 2007.

                                                 Copyrighted photograph by A. J. Narasimhan
                               courtesy of the Burleson-Crowley Connection, Cleburne, Texas




TIGTA Semiannual Report to Congress        31         October 1, 2007 through March 31, 2008
                              




Individual Charged with Misuse of IRS Symbol
On January 23, 2008, a criminal information was filed in the U.S. District Court for the
Central District of California, charging Amanda Evans with one count of misuse of a
Department of the Treasury name or symbol.

According to court documents, in connection with a business activity on July 25, 2006,
Evans knowingly used the words “Internal Revenue Service” and the symbol of the IRS, in
a manner that could reasonably be interpreted and construed as conveying the false
impression that her business activity was endorsed, authorized by, and associated with the
Department of the Treasury.

James Richards Pleads Guilty to Embezzling IRS Tax Payments from Clients
James Richards pleaded guilty in U.S. District Court for the Western District of Missouri
to one count of accepting funds intended for the IRS, one count of evasion of tax
assessment, one count of representing himself as a Certified Public Accountant (CPA) in
documents submitted to the IRS, and one count of fabricating documents purported to be
from the IRS.

According to court documents, Mr. Richards is the owner of Holliday and Associates, a
sole proprietorship that performs general accounting services and tax preparation for
clients. Mr. Richards routinely asked clients to make payments toward their anticipated
tax liability and make the checks out to him or his company. Mr. Richards accepted these
estimated tax payments from his clients that were intended for the IRS but failed to make
the required tax deposits, pay their estimated payments, or file the required forms with the
IRS.

In addition, Mr. Richards made false statements by claiming that he was a CPA in
Missouri and representing taxpayers before the IRS based on that status. To conceal his
theft, Mr. Richards fabricated IRS documents to stop collection activity for his clients.

IRS CID and TIGTA worked on this case jointly.

Individual Indicted for Theft of Public Money
Jennifer Jackson was indicted on January 17, 2008, in the U.S. District Court for the
Southern District of Texas on one count of theft of public money.

According to court documents, on or about May 9, 2005, Ms. Jackson knowingly
converted for her own use a cashier’s check for $19,749.69, made payable to the IRS for a
client’s tax payment.




TIGTA Semiannual Report to Congress         32         October 1, 2007 through March 31, 2008
                              




 DISTINGUISHED SERVICE AWARDS FOR INVESTIGATION OF
       LOAN OFFICER AND IRS REVENUE OFFICER IN
                 FRAUDULENT SCHEME




   TIGTA Special Agent Angela Druen (right) and IRS Criminal Investigation Division (CID)
   Special Agent Rodger Keester (center) pose with Thomas P. O’Brien, U. S. Attorney for
   the Central District of California, (left) after receiving distinguished service awards for
   their joint investigation of a loan broker who enlisted the aid of an IRS revenue officer to
   further his fraudulent schemes.

   The loan broker paid the IRS employee to obtain sensitive tax information maintained in
   the IRS electronic environment, which the broker subsequently submitted to the IRS and
   to lending institutions in furtherance of his fraudulent schemes.

   The IRS employee pleaded guilty to one count of violating Title 26, United States Code,
   Section 7214(A) (2), Offenses by Officers and Employees of the United States, and one
   count of violating Title 18, United States Code, Section 1001, False Statements. He was
   sentenced to one year of probation, and assessed a $500 fine and a $200 special
   assessment.

   The loan broker pleaded guilty to one count of each of the following violations: Title 18,
   United States Code, Section 152 (3), False Statements in Bankruptcy Proceedings; Title
   18, United States Code, Section 1029 (a)(2), Unauthorized Use of Access Device; Title
   18, United States Code, Section 2, Principals [for aiding and abetting the IRS Revenue
   Officer to violate 26 U.S.C. 7214(a)(2)]; Title 18, United States Code, Section 1957(a),
   Money Laundering; and Title 18, United States Code, Section 1341, Mail Fraud. He was
   sentenced to 51 months in prison followed by three years of supervised release, was
   ordered to pay $661,695.17 in restitution and a special assessment of $600.




TIGTA Semiannual Report to Congress         33         October 1, 2007 through March 31, 2008
                      




TIGTA Semiannual Report to Congress   34     October 1, 2007 through March 31, 2008
                             




            AWARDS AND SPECIAL
              ACHIEVEMENTS

EXECUTIVE DEVELOPMENT PROGRAM GRADUATES




 On March 14, 2008, a graduation ceremony was held for the participants in the IRS’s
 Winter 2008 Executive Development (XD) Program. The XD Program is the formal
 training phase of the IRS’s Senior Executive Service Candidate Development Program.
 TIGTA is participating in this program as a partner with the IRS. Its purpose is to
 identify outstanding employees with demonstrated leadership competencies, to help
 participants better understand the strategic vision of the Department of the Treasury as it
 relates to their future role as an executive, and to prepare them for senior executive
 positions. Preston Benoit (middle row, second from left), Phil Shropshire (front row,
 second from left), Deborah Trumbull (front row, third from left), and Nancy Berthold
 (front row, fourth from left) graduated and are four of six TIGTA managers currently
 enrolled in the program. TIGTA managers Kenneth Casey and Damon Plummer will
 attend the Summer 2008 XD Program.




TIGTA Semiannual Report to Congress         35         October 1, 2007 through March 31, 2008
                      




TIGTA Semiannual Report to Congress   36     October 1, 2007 through March 31, 2008
                                                          




                             AUDIT
                     STATISTICAL REPORTS


                         REPORTS WITH QUESTIONED COSTS

TIGTA issued two audit reports with questioned costs during this semiannual reporting period.1
The phrase “questioned cost” means a cost that is questioned because of:
•    an alleged violation of a provision of a law, regulation, contract, or other requirement
     governing the expenditure of funds;
•    a finding, at the time of the audit, that such cost is not supported by adequate
     documentation (an unsupported cost); or
•    a finding that expenditure of funds for the intended purpose is unnecessary or unreasonable.
The phrase “disallowed cost” means a questioned cost that management, in a management
decision, has sustained or agreed should not be charged to the government.


                                              Reports with Questioned Costs
                                                                                   Questioned Costs     Unsupported Costs
                    Report Category                                  Number
                                                                                    (in thousands)        (in thousands)

1. Reports with no management decision at the
   beginning of the reporting period                                      16            $168,237               $82,853
2. Reports issued during the reporting period                              2               $182                    $0
3. Subtotals (Item 1 plus Item 2) 2                                       18            $168,419               $82,853
4. Reports for which a management decision
   was made during the reporting period3
     a. Value of disallowed costs                                         2                 $73                    $0
     b. Value of costs not disallowed                                     7               $2,618                   $0
5. Reports with no management decision at the
   end of the reporting period (Item 3 minus Item 4)                      10            $165,728               $82,853
6. Reports with no management decision
   within 6 months of issuance                                            9             $167,568               $82,853
1
   See Appendix II for identification of audit reports involved.
2
   Difference due to rounding
3.
   IRS management disallowed only a part of the questioned cost for one report.




TIGTA Semiannual Report to Congress                                37             October 1, 2007 through March 31, 2008
                                                    




                  REPORTS WITH RECOMMENDATIONS THAT
                       FUNDS BE PUT TO BETTER USE



TIGTA issued one report with recommendations that funds be put to better use during this
semiannual reporting period.1 The phrase “recommendation that funds be put to better use”
means a recommendation that funds could be used more efficiently if management took actions
to implement and complete the recommendation, including:
•       reductions in outlays;
•       deobligations of funds from programs or operations;
•       costs not incurred by implementing recommended improvements related to operations;
•       avoidance of unnecessary expenditures noted in pre-award reviews of contract agreements;
•       preventing erroneous payment of the following refundable credits: Earned Income Tax
        Credit and Child Tax Credit; and
•       any other savings that are specifically identified.
The phrase “management decision” means the evaluation by management of the findings and
recommendations included in an audit report, and the issuance of a final decision concerning its
response to such findings and recommendations, including actions concluded to be necessary.


                  Reports with Recommendations That Funds Be Put To Better Use
                                                                                                          Amount
                                          Report Category                                  Number
                                                                                                      (in thousands)
1. Reports with no management decision at the beginning of the reporting period               0                $0
2. Reports issued during the reporting period                                                 1               $61
3. Subtotals (Item 1 plus Item 2)                                                             1               $61
4. Reports for which a management decision was made during the reporting period
     a. Value of recommendations to which management agreed
             i. Based on proposed management action                                           1               $61
             ii. Based on proposed legislative action                                         0                $0
       b. Value of recommendations to which management did not agree                          0                $0
5. Reports with no management decision at end of the
   reporting period (Item 3 minus Item 4)                                                     0                $0
6. Reports with no management decision within 6 months of issuance                            0                $0
1
    See Appendix II for identification of audit reports involved.




        TIGTA Semiannual Report to Congress                         38        October 1, 2007 through March 31, 2008
                                




  REPORTS WITH ADDITIONAL QUANTIFIABLE IMPACT
             ON TAX ADMINISTRATION

In addition to questioned costs and funds put to better use, the Office of Audit has identified
measures that demonstrate the value of audit recommendations to tax administration and business
operations. These issues are of interest to IRS and Treasury Department executives, Congress, and
the taxpaying public, and are expressed in quantifiable terms to provide further insight into the
value and potential impact of the Office of Audit’s products and services. Including this
information also promotes adherence to the intent and spirit of the Government Performance and
Results Act.

Definitions of these additional measures are:
Increased Revenue: Assessment or collection of additional taxes.
Revenue Protection: Proper denial of claims for refunds, including recommendations that prevent
erroneous refunds or efforts to defraud the tax system.
Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the need for,
frequency of, or time spent on contacts, record keeping, preparation, or costs to comply with tax
laws, regulations, and IRS policies and procedures.
Taxpayer Rights and Entitlements at Risk: The protection of due process rights granted to
taxpayers by law, regulation, or IRS policies and procedures. These rights most commonly arise
when filing tax returns, paying delinquent taxes, and examining the accuracy of tax liabilities. The
acceptance of claims for, and issuance of, refunds (entitlements) are also included in this category,
such as when taxpayers legitimately assert that they overpaid their taxes.
Taxpayer Privacy and Security: Protection of taxpayer financial and account information
(privacy). Processes and programs that provide protection of tax administration, account
information, and organizational assets (security).
Inefficient Use of Resources: Value of efficiencies gained from recommendations to reduce cost
while maintaining or improving the effectiveness of specific programs. Resources saved would be
available for other IRS programs. Also, the value of internal control weaknesses that resulted in an
unrecoverable expenditure of funds with no tangible or useful benefit in return.
Reliability of Management Information: Ensuring the accuracy, validity, relevance, and
integrity of data, including the sources of data and the applications and processing thereof, used
by the organization to plan, monitor, and report on its financial and operational activities. This
measure will often be expressed as an absolute value (i.e., without regard to whether a number is
positive or negative) of overstatements or understatements of amounts recorded on the
organization’s documents or systems.
Protection of Resources: Safeguarding human and capital assets, used by or in the custody of the
organization, from inadvertent or malicious injury, theft, destruction, loss, misuse, overpayment, or
degradation.




TIGTA Semiannual Report to Congress             39        October 1, 2007 through March 31, 2008
                                                       




The number of taxpayer accounts and dollar values shown in the following chart were
derived from analyses of historical data, and are thus considered potential barometers of
the impact of audit recommendations. Actual results will vary depending on the timing and
extent of management’s implementation of the corresponding corrective actions, and the
number of accounts or subsequent business activities impacted from the dates of
implementation. Also, a report may have issues that impact more than one outcome
measure category.

          Reports with Additional Quantifiable Impact On Tax Administration
                                                                Number of       Number of         Dollar Value
         Outcome Measure Category
                                                                 Reports1   Taxpayer Accounts   (in thousands)

    Increased Revenue                                               3              65,193            $149,510

    Revenue Protection                                              2                 349              $1,527

    Reduction of Burden on Taxpayers                                3            1,150,978

    Taxpayer Rights and Entitlements at Risk                        2                  11               $733

    Taxpayer Privacy and Security                                   1

    Inefficient Use of Resources                                    2                                 $20,500

    Reliability of Management Information                           5                  63                 $41

    Protection of Resources
1
    See Appendix II for identification of audit reports involved.



    Management did not agree with the outcome measures in the following reports:
    •  Increased Revenue: Reference Number 2008-40-087, and
    •  Inefficient Use of Resources: Reference Number 2008-10-025
    The following reports contained quantifiable impacts in addition to the number of taxpayer accounts and
    dollar value:
    •    Taxpayer Rights and Entitlements and Taxpayer Privacy and Security: Reference Number
         2008-30-082, and
    •    Reliability of Management Information: Reference Numbers 2008-20-002, 2008-10-025, and
         2008-20-028.




TIGTA Semiannual Report to Congress                                 40        October 1, 2007 through March 31, 2008
                                                 




                       INVESTIGATIONS
                     STATISTICAL REPORTS

                                  Significant Investigative Achievements
                                     October 1, 2007 – March 31, 2008

Complaints/Allegations Received by TIGTA
       Complaints against IRS Employees                                                                     2,169
       Complaints against Non-Employees                                                                     2,464

     Total Complaints/Allegations                                                                           4,633

Status of Complaints/Allegations Received by TIGTA
       Investigations Initiated                                                                             1,798
                                  1
       In Process within TIGTA                                                                                359
       Referred to IRS for Action                                                                             287
       Referred to IRS for Information Only                                                                   822
                                      2
       Referred to a Non-IRS Entity                                                                                7
       Closed with No Referral                                                                              1,025
       Closed with All Actions Completed                                                                      335
      Total Complaints                                                                                      4,633

Investigations Opened and Closed
       Total Investigations Opened                                                                          1,728
       Total Investigations Closed                                                                          1,795

Financial Accomplishments
       Embezzlement/Theft Funds Recovered                                                                 $45,951
       Court Ordered Fines, Penalties and Restitution                                                 $11,460,982
       Out-of-Court Settlements                                                                                    0

      Total Financial Accomplishments                                                                $11,506,933
1
    Complaints for which final determination had not been made at the end of the reporting period.
2
    A non-IRS entity includes other law enforcement entities or Federal agencies.

Note: The IRS made 75 referrals to TIGTA that would more appropriately be handled by the IRS, and therefore were
returned to the IRS. These are not included in the total complaints shown above.




TIGTA Semiannual Report to Congress                           41            October 1, 2007 through March 31, 2008
                                                  




                                    Status of Closed Criminal Investigations
                                                                                              Non-
                                                                       Employee                                        Total
        Criminal Referrals1                                                                  Employee
            Referred – Accepted for Prosecution                           30                       66                  96
            Referred – Declined for Prosecution                          359                     268                  627
            Referred – Pending Prosecutorial Decision                     31                       79                 110
        Total Criminal Referrals                                         420                     413                  833
        No Referral                                                      456                     508                  964
1
    Criminal referrals include both Federal and State dispositions.


                                               Criminal Dispositions2
                                                                      Employee         Non-Employee                 Total
 Guilty                                                                   17                     41                    58
 Nolo Contendere (no contest)                                              1                       1                    2
 Pre-trial Diversion                                                      12                       3                   15
 Deferred Prosecution3                                                     0                       0                    0
 Not Guilty                                                                0                       0                    0
             4
 Dismissed                                                                 2                       4                    6

 Total Criminal Dispositions                                              32                     49                    81
2
  Final criminal dispositions during the reporting period. This data may pertain to investigations referred criminally in prior
reporting periods and do not necessarily relate to the investigations referred criminally in the Status of Closed Criminal
Investigations table above.
3
  Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with certain
conditions imposed by the court. Upon the defendant’s completion of the conditions, the court dismisses the case. If the
defendant fails to fully comply, the court reinstates prosecution of the charge.
4
  Court dismissed charges.


                 Administrative Dispositions on Closed TIGTA Investigations5
                                                                                                                    Total
 Removed, Terminated or Other                                                                                         336
 Suspended/Reduction in Grade                                                                                         116
 Oral or Written Reprimand/Admonishment                                                                               127
 Closed – No Action Taken                                                                                             104
 Clearance Letter Issued                                                                                                76
 Employee Resigned Prior to Adjudication                                                                              123
                                                      6
 Non-Internal Revenue Service Employee Actions                                                                        352

 Total Administrative Dispositions                                                                                  1,234
5
  Final administrative dispositions during the reporting period. This data may pertain to investigations referred
administratively in prior reporting periods and does not necessarily relate to the investigations closed in the Investigations
Opened and Closed table.
6
  Administrative actions taken by the IRS against non-IRS employees.




TIGTA Semiannual Report to Congress                           42               October 1, 2007 through March 31, 2008
                                          




                        APPENDIX I
                    STATISTICAL REPORTS
                          - OTHER
                AUDIT REPORTS WITH SIGNIFICANT
              UNIMPLEMENTED CORRECTIVE ACTIONS
  The Inspector General Act of 1978 requires identification of significant recommendations described in
  previous semiannual reports for which corrective actions have not been completed. The following list is
  based on information from the IRS Office of Management Control’s automated tracking system
  maintained by Treasury Department management officials.



                 IRS
              Management                           Projected    Report Title and Recommendation Summary
Reference      Challenge                          Completion    (F = Finding No., R = Recommendation No.,
 Number          Area                Issued          Date                       P = Plan No.)
2001-30-052     Tax Compliance       March 2001                Program Improvements Are Needed to Encourage Taxpayer
                   Initiatives                                 Compliance in Reporting Foreign Sourced Income

                                                    12/15/10   F-3, R-1, P-1, P-2. Improve systems that process data the IRS receives
                                                               on foreign sourced income.
2003-10-094     Erroneous and        March 2003                Improvements Are Needed in the Monitoring of Criminal
              Improper Payments                                Investigation Controls Placed on Taxpayers’ Accounts When Refund
                                                               Fraud is Suspected

                                                    06/15/08   F-1, R-2, P-1. Ensure that regular reviews of the Questionable Refund
                                                               Program are conducted to assess compliance with procedures and that
                                                               feedback is provided regarding program effectiveness. Also, analyses of
                                                               the Fraud Detection Centers’ control listing data should be analyzed to
                                                               ensure reviews are done and accounts are resolved.

2003-40-139     Tax Compliance       June 2003                 Opportunities Exist to Improve the Administration of the Earned
                   Initiatives                                 Income Tax Credit

                                                    07/15/08   F-1, R-2, P-1. Establish a consistent method to measure progress toward
                                                               the Earned Income Tax Credit (EITC) Program’s long-term goals.

2003-30-176     Tax Compliance         August                  Interest Paid to Large Corporations Could Significantly Increase
                   Initiatives          2003                   Under a Proposed New Revenue Procedure

                                                    01/15/09   F-1, R-2, P-1. Gather pertinent information concerning the affected
                                                               proposed procedure to reduce the length of examinations and interest
                                                               costs by conducting a pilot program to demonstrate the actual benefits
                                                               that could be achieved.

2004-20-001       Systems             October                  Risks Are Mounting As the Integrated Financial System Project Team
              Modernization of the     2003                    Strives to Meet An Aggressive Implementation Date
                     IRS
                                                    12/31/10   F-2, R-1, P-1. Ensure that the disaster recovery environment is
                                                               completely built-out and tested.




  TIGTA Semiannual Report to Congress                    43         October 1, 2007 through March 31, 2008
                                         




                 IRS
              Management                          Projected     Report Title and Recommendation Summary
Reference      Challenge                         Completion     (F = Finding No., R = Recommendation No.,
 Number          Area               Issued          Date                        P = Plan No.)
2004-30-038    Tax Compliance        January                  Access to the Toll-Free Telephone System Was Significantly Improved in
                  Initiatives         2004                    2003, but Additional Enhancements Are Needed

                                                   07/15/08   F-3, R-1, P-1. Develop an Activity Based Costing system that reliably
                                                              captures and reports both the total cost and the cost-per-call of providing
                                                              services on each toll-free product line.

2004-30-068    Tax Compliance       March 2004                Additional Efforts Are Needed to Improve the Bank Secrecy Act
                  Initiatives                                 Compliance Program

                                                   07/15/08   F-2, R-1, P-1. Develop standard risk-based case selection criteria that
                                                              would provide minimum requirements and parameters for case
                                                              selection.

2004-40-098     Erroneous and       May 2004                  Better Use of the National Account Profile During Returns
              Improper Payments                               Processing Can Eliminate Erroneous Payments

                                                   12/15/08   F-2, R-1, P-1. Conduct studies on the accuracy of EITC claims on tax
                                                              returns for individuals that have been claimed for EITC purposes that
                                                              are 20 or more years older than the primary taxpayer, or are listed as
                                                              children that are up to 19 years older than the primary taxpayer.

2004-20-131   Security of the IRS   September                 The Use of Audit Trails to Monitor Key Networks and Systems Should
                                      2004                    Remain Part of the Computer Security Material Weakness

                                                   04/30/12   F-2, R-4, P-1. Develop and implement a reasonable approach for
                                                              reviewing audit trails over major applications.

2005-40-026   Providing Quality      February                 Processes Used to Ensure the Accuracy of Information for Individual
              Taxpayer Service         2005                   Taxpayers on IRS.GOV Need Improvement
                 Operations
                                                   12/31/10   F-1, R-1, P-4. Develop a process to ensure that only authorized
                                                              personnel have access to IRS.gov content.
                                                   12/31/10   F-1, R-2, P-1, P-2. Enhance the IRS’ content management software
                                                              application to provide the ability to identify specific content accessed or
                                                              revised by individual users.

2005-20-024   Security of the IRS   March 2005                The Disaster Recovery Program Has Improved, But It Should Be
                                                              Reported as a Material Weakness Due to Limited Resources and
                                                              Control Weaknesses

                                                   12/31/10   F-1, R-1, P-1, P-5. Report a disaster recovery program material
                                                              weakness to the Department of the Treasury as part of the IRS’ Federal
                                                              Managers’ Financial Integrity Act of 1982 annual evaluation of controls
                                                              and include any new or currently underway activities in the corrective
                                                              action plan.

2005-10-107    Human Capital        July 2005                 Improved Policies and Guidance Are Needed for the Telework
                                                              Program

                                                   10/15/08   F-1, R-1, P-1. Ensure an IRS-wide Flexiplace Program policy is
                                                              developed and implemented that addresses all the elements
                                                              recommended by the Office of Personnel Management (OPM).
                                                   10/15/08   F-2, R-1, P-1. Implement guidelines to assist managers in evaluating
                                                              employees’ abilities to participate in the Flexiplace Program without a
                                                              loss in productivity.
                                                   10/15/08   F-2, R-2, P-1. Ensure Flexiplace Program training is provided as needed
                                                              to help address productivity concerns.
                                                   10/15/08   F-2, R-3, P-1. Assess the logistical support and equipment needs of
                                                              Flexiplace Program participants to help ensure there is no loss in
                                                              productivity.




  TIGTA Semiannual Report to Congress                   44          October 1, 2007 through March 31, 2008
                                           




                 IRS
              Management                            Projected    Report Title and Recommendation Summary
Reference      Challenge                           Completion    (F = Finding No., R = Recommendation No.,
 Number          Area                 Issued          Date                       P = Plan No.)
2005-40-110    Providing Quality      July 2005                 The Effectiveness of the Taxpayer Assistance Center Program Cannot
               Taxpayer Service                                 Be Measured
                  Operations
                                                     10/15/08   F-1, R-1, P-1. Enhance the management information system to capture
                                                                the number of taxpayers served, the numbers and types of services
                                                                provided, and the related resources.
                                                     06/15/08   F-1, R-3, P-1. Develop a process that includes routine assessments of
                                                                Taxpayer Assistance Center (TAC) operations to ensure the TACs are
                                                                optimally located and the services provided at the TACs are the most
                                                                effective and cost efficient.

2005-10-129    Providing Quality      September                 Progress Has Been Made, but Further Improvements Are Needed in
               Taxpayer Service         2005                    the Administration of the Low Income Taxpayer Clinic Grant
                  Operations                                    Program

                                                     05/31/10   F-1, R-1, P-2. Establish goals and performance measures for the Low
                                                                Income Tax Clinic program to assist Congress and IRS in evaluating the
                                                                success of the program.

2005-10-149      Human Capital        September                 The Internal Revenue Service Does Not Adequately Assess the
                                        2005                    Effectiveness of Its Training

                                                     05/15/08   F-2, R-1, P-2. Ensure all IRS components follow established procedures
                                                                to evaluate training in order for the IRS to comply with the training
                                                                assessment requirement of the Federal Workforce Flexibility Act of
                                                                2004.

2005-30-154    Processing Returns     September                 The Clarity of Math Error Notices Has Been Improved, but Further
               and Implementing         2005                    Changes Could Enhance Notice Clarity and Reduce Unnecessary
               Tax Law Changes                                  Notices
              During the Tax Filing
                    Season                           05/15/08   F-1, R-2, P-1. Revise tax statement tables contained on notices to
                                                                include specific amounts from at least some line items on which
                                                                taxpayers made errors on their tax returns.

2006-40-007      Erroneous and        November                  Efforts to Prevent Improper Tax Benefits Resulting From Multiple
               Improper Payments        2005                    Uses of Taxpayer Identification Numbers Can Be Improved

                                                     04/15/08   F-1, R-1, P-2. Lead a collaborative effort to identify a workable solution
                                                                to resolve multiple identification number use cases where an
                                                                identification number is used as a primary identification number on one
                                                                return and a secondary identification number on another return.

2006-40-061    Providing Quality      March 2006                The Taxpayer Assistance Center Closure Plan Was Based on
               Taxpayer Service                                 Inaccurate Data
                  Operations
                                                     06/15/08   F-1, R-1, P-1. Ensure data used in the Model or any decision-making
                                                                tool are accurate and reliable and have been validated before using them
                                                                to make decisions regarding the TAC Program.

2006-10-066      Erroneous and        March 2006                The Office of Professional Responsibility Can Do More to Effectively
               Improper Payments                                Identify and Act Against Incompetent and disreputable Tax
                                                                Practitioners

                                                     07/15/08   F-1, R-3, P-1. Develop a method to identify representatives on the
                                                                Centralized Authorization File that does not require representatives to
                                                                use Social Security numbers on Form 2848.




  TIGTA Semiannual Report to Congress                     45         October 1, 2007 through March 31, 2008
                                           




                 IRS
              Management                         Projected       Report Title and Recommendation Summary
Reference      Challenge                        Completion       (F = Finding No., R = Recommendation No.,
 Number          Area               Issued         Date                          P = Plan No.)
2006-30-132        Tax Gap          September                   Additional Enhancements Could Improve Tax Compliance of
                                      2006                      Employees Who Receive Tips

                                                  02/15/09      F-3, R-2, P-1. Ensure the SWETRS program remains funded through
                                                                completion and include the Gaming tip agreements in the Tip
                                                                Agreement database.
                                                  02/15/09      F-4, R-1, P-1. Ensure the results of initial testing of the ATIP Revenue
                                                                Procedure are analyzed and consider developing similar Revenue
                                                                Procedures for small businesses in other industries to increase the
                                                                chance of improving the tip income reporting compliance.

2006-20-166   Security of the IRS   September                   The Monitoring of Privacy Over Taxpayer Data Is Improving,
                                      2006                      Although Enhancements Can Be Made to Ensure Compliance With
                                                                Privacy Requirements

                                                  10/15/08      F-2, R-1, P-2, P-3, P-4. Initiate a program providing for the routine
                                                                evaluation of employee training activities relative to current privacy
                                                                policy requirements and develop a system for the tracking and
                                                                monitoring of these activities.
                                                P-2: 06/15/08   F-2, R-2, P-2, P-3. Reinforce the importance of Privacy Impact
                                                P-3: 04/15/09   Assessment case documentation with specific instructions or case
                                                                models and implement a compliance review process to assess whether
                                                                IRS business units are adhering to privacy regulations, given limited
                                                                resources and staff knowledge in conducting these reviews.

2006-40-172   Security of the IRS   September                   Accountability Over Volunteer Income Tax Assistance Program
                                      2006                      Computers Continues to Be a Problem

                                                P-1: 05/01/08   F-1, R-2, P-1, P-2. Integrate the Information Technology Asset
                                                P-2: 09/15/08   Management System and SPEC Taxpayer Assistance Reporting System
                                                                to link the information between the two and ensure all VITA Program
                                                                computers are properly and efficiently controlled
2006-20-177   Security of the IRS   September                   Improvements Are Needed to Ensure the Use of Modernization
                                      2006                      Applications Is Effectively Audited

                                                  10/15/08      F-2, R-2, P-1. Modify modernized system audit trails to comply with
                                                                Security Audit and Analysis System standards, ensuring data collected
                                                                are valid and arranged in the proper format.
                                                  04/15/08      F-2, R-3, P-1. Reevaluate SAAS procedures and processes to ensure the
                                                                new SAAS requirements are incorporated and responsibilities for
                                                                reviewing modernization audit trails are adequately defined.

2006-20-178   Security of the IRS   September                   Complete Certification and Accreditation Is Needed to Ensure the
                                      2006                      Electronic Fraud Detection System Meets Federal Government
                                                                Security Standards

                                                  10/01/08      F-3, R-1, P-1. Develop a Business Impact Analysis for the Enterprise
                                                                Computing Center – Memphis that places the EFDS at an appropriate
                                                                priority among the other major applications residing at the Enterprise
                                                                Computing Center – Memphis.

2007-40-026   Providing Quality      January                    Improvements to the E-Help Desk Are Needed to Support Expanding
              Taxpayer Service        2007                      Electronic Products and Services
                 Operations
                                                  04/15/09      F-1, R-4, P-2, P-3. Develop processes and procedures to ensure
                                                                management information is complete and accurate.




  TIGTA Semiannual Report to Congress                   46           October 1, 2007 through March 31, 2008
                                         




                 IRS
              Management                          Projected    Report Title and Recommendation Summary
Reference      Challenge                         Completion    (F = Finding No., R = Recommendation No.,
 Number          Area               Issued          Date                       P = Plan No.)
2007-20-048   Security of the IRS   March 2007                The Internal Revenue Service Is Not Adequately Protecting Taxpayer
                                                              Data on Laptop Computers and Other Portable Electronic Media
                                                              Devices

                                                   07/01/08   F-3, R-2, P-1. Require front-line managers to periodically check their
                                                              employees’ laptop computers to ensure encryption solutions are being
                                                              used by employees and sensitive data are encrypted properly.
                                                   04/01/08   F-5, R-1, P-1. Implement procedures to encrypt backup data sent to
                                                              non-IRS facilities.

2007-30-049    Tax Compliance       March 2007                The Internal Revenue Service Needs to Improve Procedures to
                  Initiatives                                 Identify Noncompliance With the Reporting Requirements for
                                                              Noncash Charitable Contributions

                                                   01/15/09   F-2, R-1, P-3. Develop procedures to address returns without required
                                                              substantiation for noncash charitable contributions.

2007-40-057    Providing Quality    March 2007                Steps Can Be Taken to Reduce the Challenges Taxpayers With Vision
               Taxpayer Service                               Impairments Face When Attempting to Meet Their Tax Obligations
                  Operations
                                                   05/15/08   F-1, R-1, P-1. Consider eliminating the income restriction on free tax
                                                              preparation of simple tax returns at Taxpayer Assistance Centers for
                                                              taxpayers with disabilities and allow them to schedule appointments in
                                                              advance for tax return preparation assistance.
                                                   05/15/08   F-2, R-1, P-2. Conduct a study to determine the current and future
                                                              needs and required services for taxpayers with vision impairments.
                                                   05/15/09   F-2, R-2, P-1. Using the results of the study, develop a long-term
                                                              strategy to assist taxpayers with vision impairments, including seniors.
                                                   01/15/10   F-3, R-1, P-1. Provide additional viewing options on IRS.gov, such as
                                                              scalable fonts, enlarged text size, or background colors to make it more
                                                              accessible to taxpayers with vision impairments.
2007-10-061     Tax Exempt          March 2007                Tax-Exempt Hospital Industry Compliance With Community Benefit
                Organizations                                 and Compensation Practices Is Being Studied, but Further Analyses
                                                              Are Needed to Address Any Noncompliance

                                                   09/15/08   F-1, R-1, P-1. Ensure the interim report includes an assessment of how
                                                              tax-exempt hospitals are providing a community benefit, as well as any
                                                              planned actions that is determined necessary to address the community
                                                              benefit standard.

2007-30-062    Tax Compliance       March 2007                Social Security and Medicare Taxes Are Not Being Properly Assessed
                  Initiatives                                 on Some Tips and Certain Types of Wage Income

                                                   01/15/09   F-1, R-1, P-5. Use Form 4137 exclusively for calculating Social
                                                              Security and Medicare taxes on tip income. Revise the form to capture
                                                              the data necessary to assess the employer’s share of Social Security and
                                                              Medicare taxes on unreported tip income.
                                                   01/15/09   F-1, R-2, P-1, P-2. Develop a compliance program to ensure the revised
                                                              Form 4137 is used effectively to identify and assess the employer’s
                                                              share of Social Security and Medicare taxes on unreported tip income.
                                                   01/15/09   F-3, R-2, P-1, P-2. Develop a compliance program to help ensure only
                                                              qualifying individuals use the new form and the appropriate amounts of
                                                              Social Security and Medicare taxes are assessed for self-employed
                                                              taxpayers or employers that are misclassifying their employees.

2007-10-074   Using Performance     April 2007                More Careful Monitoring of Billings for Working Capital Fund
                 and Financial                                Administrative Services Is Needed
                Information for
              Program and Budget                   04/15/08   F-1, R-1, P-1. Develop procedures requiring that working capital fund
                   Decisions                                  (WCF) billings be reviewed and certified as accurate before entry into
                                                              IRS records as valid expenses.
                                                   04/15/08   F-2, R-1, P-1. Revise procedures to require that WCF expenditures be
                                                              allocated only to obligations directly related to the expenditures.




  TIGTA Semiannual Report to Congress                   47         October 1, 2007 through March 31, 2008
                                         




                 IRS
              Management                          Projected     Report Title and Recommendation Summary
Reference      Challenge                         Completion     (F = Finding No., R = Recommendation No.,
 Number          Area                Issued         Date                        P = Plan No.)
2007-10-076     Erroneous and        May 2007                 Actions Have Been Taken to Address Deficiencies in the Questionable
              Improper Payments                               Refund Program; However, Many Concerns Remain, With Millions
                                                              of Dollars at Risk

                                                   01/31/09   F-2, R-2, P-1. Initiate a legislative proposal to exempt the IRS from
                                                              issuing a deficiency notice for disallowance of EITC and other
                                                              refundable credits when the deficiency and credits are the result of
                                                              fraudulent returns, if its current efforts through a regulatory change are
                                                              not successful.
                                                   12/15/08   F-4, R-1, P-1. Reemphasize the requirement to maintain documentation
                                                              and/or notations to describe how the Fraud Detection Centers
                                                              determined fraud.

2007-10-082      Tax Exempt          May 2007                 Screening Tax-Exempt Organizations Filing Information Provides
                 Organizations                                Minimal Assurance That Potential Terrorist-Related Activities Are
                                                              Identified

                                                   07/15/08   F-1, R-1, P-1. Develop and implement a long-term strategy to automate
                                                              the matching of Forms 1023 and 990 information against a consolidated
                                                              terrorist watch list to initially identify potential terrorist activities related
                                                              to tax-exempt organizations.
                                                   01/15/09   F-1, R-2, P-1. Evaluate whether more comprehensive terrorist watch
                                                              lists should be used in conjunction with the Department of the
                                                              Treasury’s Office of Foreign Assets Control list during the screening of
                                                              tax-exempt filing data to improve the identification of organizations
                                                              and/or individuals potentially involved in terrorist-related activities.
2007-20-080       Systems            July 2007                Vital Decisions Must Be Made to Ensure Successful Implementation
              Modernization of the                            of Customer Account Data Engine Capabilities
                     IRS
                                                   07/01/08   F-3, R-1, P-1. Review alternative design solutions and identify process
                                                              improvements for the Project.

2007-20-107   Security of the IRS    July 2007                Employees Continue to Be Susceptible to Social Engineering Attempts
                                                              That Could Be Used by Hackers

                                                   06/15/08   F-1, R-1, P-1. Continue security awareness activities to remind
                                                              employees of the potential for social engineering attempts and the need
                                                              to report these incidents.
                                                   10/15/08   F-1, R-2, P-1. Conduct internal social engineering tests on a periodic
                                                              basis to increase employees’ security awareness and the need to protect
                                                              usernames and passwords.

2007-20-123       Systems            July 2007                While Improvements Continue in Contract Negotiation Methods and
              Modernization of the                            Management Practices, Inconsistencies Need to Be Addressed
                     IRS
                                                   03/01/09   F-2, R-1, P-1. Collect and review lessons learned from the use of
                                                              independent estimates to determine whether independent estimates can
                                                              become a consistently more useful negotiations tool.
                                                   06/15/08   F-3, R-2, P-1. Ensure improvements and training opportunities for the
                                                              use of performance standards are identified and coordinate with other
                                                              IRS organizations to encourage the use of performance standards for
                                                              systems development task orders outside of the control of the
                                                              Modernization and Information Technology Services organization.
                                                   06/15/08   F-3, R-4, P-1. Collect and disseminate guidance for documenting
                                                              contractor performance and coordinate with other IRS organizations to
                                                              communicate the importance of documenting contractor performance
                                                              for systems development task orders outside of the control of the
                                                              Modernization and Information Technology Services organization.




  TIGTA Semiannual Report to Congress                   48          October 1, 2007 through March 31, 2008
                                         




                 IRS
              Management                          Projected     Report Title and Recommendation Summary
Reference      Challenge                         Completion     (F = Finding No., R = Recommendation No.,
 Number          Area                Issued         Date                        P = Plan No.)
2007-20-121       Systems             August                  Annual Assessment of the Business Systems Modernization Program
              Modernization of the     2007
                     IRS                           12/31/10   F-1, R-1, P-1. Continue to address Modernization program corrective
                                                              actions from TIGTA and Government Accountability Office reports
                                                              through the Highest Priority Initiatives process.

2007-40-125   Using Performance       August                  Taxpayer Service Savings Estimates for Fiscal Years 2006 and 2007
                 and Financial         2007                   Could Not Be Validated
                Information for
              Program and Budget                   04/15/08   F-1, R-1, P-1. Develop a thorough process for compiling the data used
                   Decisions                                  for the IRS’ budget requests to help ensure the accuracy of the estimates
                                                              and to facilitate a better understanding of the impact of budget
                                                              reductions on operations.

2007-40-164    Providing Quality      August                  The Internal Revenue Service Provides Helpful Tax Law Assistance,
               Taxpayer Service        2007                   But Still Has Problems With Tax Return Preparation Assistance
                  Operations
                                                   10/15/08   F-2, R-2, P-1. Consider revising the appointment procedures to alleviate
                                                              taxpayer burden, i.e., having to return to the TACs multiple times to
                                                              schedule appointments.

2007-10-166     Tax Compliance        August                  Efforts to Collect Delinquent Employment Taxes Owed by
                   Initiatives         2007                   Government Entities Could Be Improved

                                                   09/15/08   F-1, R-2, P-2. Reinforce IRS procedures requiring that revenue officers
                                                              and/or their managers contact Federal, State, local governments office
                                                              specialists designated for their respective offices prior to pursuing
                                                              collection actions against government entities and work with the FSLG
                                                              office to explore the feasibility of preparing a quarterly report of new
                                                              State and local government entities assigned to the Collection Field
                                                              function.
                                                   09/15/08   F-2, R-1, P-2. Ensure comprehensive guidelines and procedures are
                                                              developed to guide the assignment, control, and resolution of Federal
                                                              Government entity delinquency cases.
                                                   09/15/08   F-2, R-2, P-2. Reinforce existing IRS procedures requiring that revenue
                                                              officers notify the appropriate SB/SE Division Territory manager before
                                                              issuing a final notice of the intent to levy to a State or local government
                                                              entity.

2007-30-172    Complexity of the     September                Like-Kind Exchanges Require Oversight to Ensure Taxpayer
                  Tax Law              2007                   Compliance

                                                   08/15/08   F-1, R-1, P-1. Conduct a study of issue-related returns selected by the
                                                              National Research Program.

2007-30-173     Tax Compliance       September                Significant Tax Administration Challenges Exist in Determining
                   Initiatives         2007                   Whether Individual Returns With Schedule C Losses Are Engaged in
                                                              Tax Abuse

                                                   07/15/08   F-1, R-2, P-1. Continue to coordinate with practitioner organizations to
                                                              encourage compliance with existing provisions.




  TIGTA Semiannual Report to Congress                   49         October 1, 2007 through March 31, 2008
                                  




                      OTHER STATISTICAL REPORTS

         The Inspector General Act of 1978 requires Inspectors General
                        to address the following issues:


                        Issue                                        Result for TIGTA
Access to Information
Report unreasonable refusals of information
available to the agency that relate to programs and    As of March 31, 2008, there were no
operations for which the Inspector General has         instances in which information or assistance
responsibilities.                                      requested by the Office of Audit was refused.

Disputed Audit Recommendations
Provide information on significant management          As of March 31, 2008, no reports were issued
decisions in response to audit recommendations with    in which significant recommendations were
which the Inspector General disagrees.                 disputed.

Revised Management Decisions
Provide a description and explanation of the reasons
for any significant revised management decisions       As of March 31, 2008, no significant
made during the reporting period.                      management decisions were revised.

Audit Reports Issued in the Prior Reporting
Period With No Management Response
Provide a summary of each audit report issued
before the beginning of the current reporting period   As of March 31, 2008, there were no prior
for which no management response has been              reports in which management’s response was
received by the end of the current reporting period.   not received.

Review of Legislation and Regulations
Review existing and proposed legislation and           TIGTA’s Office of Chief Counsel reviewed
regulations, and make recommendations concerning       175 proposed regulations and legislative
the impact of such legislation or regulations.         requests during this reporting period.




TIGTA Semiannual Report to Congress             50        October 1, 2007 through March 31, 2008
                                        




                            APPENDIX II
                           AUDIT PRODUCTS

                 OCTOBER 1, 2007 – MARCH 31, 2008

                          Inspector General Congressional Testimony
Reference Number                               Hearing Title
               February 2008
                   Hearing Before the Subcommittee on Federal Workforce, Postal Service and the District of
                   Columbia Committee on Oversight and Government Reform, U.S. House of Representatives –
  2008-OT-074      The IRS’ Pay for Performance System


                                              Audit Products
Reference Number                                    Report Title
               October 2007
   2008-3E-003    Roll-up Report: Issues Confronting the Federal Tax System
                  Identification of Unreported Self-Employment Taxes Can Be Improved (Increased Revenue,
   2008-30-001    $95,118,395)
                  The Customer Account Data Engine Release 2.2 Posted Tax Return Information Accurately
   2008-40-004    (Revenue Protected: $400,000 impacting 338 taxpayers)
                 November 2007
  2008-1C-005       Report on Audit of Post Award Survey of Subcontractor’s Accounting and Billing Systems
  2008-1C-006       Report on Audit of Facilities Utilization
                    Efforts to Update Aging Computer Hardware Are Underway, but Program Improvements Are
                    Needed to Minimize Risks (Reliability of Information: $50 million in lost revenue incorrectly
   2008-20-002      attributed to aging equipment)
                    The Internal Revenue Service’s Compliance With the Federal Information Security
  2008-20-026       Management Act (Non-Intelligence – National Security Systems) for Fiscal Year 2007
  2008-1C-007       Incurred Costs Audit of Contractor's Calendar Year 2004 (Questioned Costs: $21,319)
  2008-1C-008       Report on Concurrent Audit of Adequacy and Compliance of Revised Disclosure Statement
  2008-1C-009       Report on Audit of Information Technology System General Internal Controls
  2008-1C-010       Report on Followup Audit of Labor Accounting System
  2008-1C-011       Incurred Costs Audit for Fiscal Year Ending December 31, 2004
  2008-1C-012       Report on Post Award Accounting System Review
  2008-1C-013       Audit Report for Post Award Accounting System
  2008-1C-014       Report on Audit of Billing System
                    Audit Report on Compliance With Cost Accounting Standard 409, Depreciation of Tangible
  2008-1C-015       Capital Assets
                    Report on Audit of Adequacy and Compliance of the Contractor's Fiscal Year 2006 Revised
  2008-1C-016       Disclosure Statement (Version 06-03), Effective September 29, 2006




  TIGTA Semiannual Report to Congress                51            October 1, 2007 through March 31, 2008
                                     

                                                   



               Audit Report on Compliance With Cost Accounting Standard 407, Use of Standard Costs for
2008-1C-017    Material and Labor
2008-1C-018    Report on Audit of Post Award Survey of Subcontractor's Accounting and Billing Systems
2008-1C-019    Report on Post Award Accounting System Review
            December 2007
               Management Oversight Improved, but Expected Benefits and Capabilities for the Tax
               Exempt Determination System Release 2 Were Not Delivered (Reliability of Information:
               $46.8 million of benefits and costs not accurately tracked; Inefficient Use of Resources:
2008-10-025    $17 million in costs for which the IRS received no benefit)
2008-1C-020       Accounting System Review
2008-1C-021       Report on Audit of Labor Floor Checks and Interviews
2008-1C-022       Audit of Cost Accounting Standard 411, Accounting for Acquisition Costs of Material
                  Report on Audit of Compliance With Cost of Money As an Element of the Cost of Facilities
2008-1C-023       Capital
2008-1C-024       Report on Purchase Existence and Consumption
2008-20-029       Internal Revenue Service Databases Continue to Be Susceptible to Penetration Attacks
                  Lack of Proper IRS Oversight of the Department of the Treasury HSPD-12 Initiative
                  Resulted in Misuse of Federal Government Resources (Inefficient Use of Resources:
2008-20-030       $3.5 million in purchases not used)
                  Tax Examiners Did Not Always Resolve Return Delinquency Cases, and Computer Checks
2008-30-027       Did Not Identify Unfiled Returns
                  Audit of Cost Accounting Standard 415, Accounting for the Costs of Deferred
2008-1C-031       Compensation
2008-1C-032       Performance of Labor Floor Checks
                  Audit of Cost Accounting Standard 410, Allocation of Business Unit General and
2008-1C-033       Administrative Expenses to Final Cost Objectives
                  Appropriate Actions Were Taken to Prepare for the Receipt of New Filing Information From
2008-10-051       Smaller Tax-Exempt Organizations (Taxpayer Burden: 577,713 corrected letters issued)
                  The Tax Exempt Bonds Office Has Established Controls, but Improvements Are Needed to
2008-10-052       Prevent Improprieties
2008-10-054       Invoice Audit of Fees Paid Under the Private Debt Collection Initiative
            January 2008
               The Office of Appeals Closed Case Files Are Overwhelming Onsite Storage Space (Funds
2008-10-055    Put to Better Use: $60,570)
                 The Modernization and Information Technology Services Organization’s Competitive
                 Sourcing Program Needs Improvement (Reliability of Information: support not provided for
2008-20-028      the reported savings of $77,472,000 and 100 million printed pages)
2008-1C-034      Audit of Compliance With Cost Accounting Standard 418, Allocation of Direct and Indirect Costs
2008-1C-035      Post Award Accounting System Audit
2008-1C-036      Report on Audit of Post Award Accounting System
                 Report on Compliance With Cost Accounting Standard 418, Allocation of Direct and Indirect
2008-1C-037      Costs
2008-1C-038      Audit of Accounting System Post Award
2008-1C-039      Report on Audit of Post Award Accounting System
2008-1C-040      Incurred Costs Audit for Fiscal Years 2004 and 2005
2008-10-058      Attestation Review of the Internal Revenue Service’s Fiscal Year 2007 Annual Accounting



TIGTA Semiannual Report to Congress                52           October 1, 2007 through March 31, 2008
                                   



                 of Drug Control Funds and Related Performance
            February 2008
               The Taxpayer Assistance Blueprint Phase 2 Was Generally Reliable, but Oversight of the
2008-40-059    Survey Design Needs Improvement
2008-1C-041    Report on Post-Contract Award Accounting System Audit
2008-1C-042      Report on Post-Award Review of Subcontractor’s Accounting System
2008-1C-047      Report on Post-Award Accounting System Review
2008-1C-048      Report on Post-Award Accounting System Review
2008-1C-049      Report on Post-Award Audit of Accounting System
                 The Baltimore Collection Field Function Office Properly Controlled Form 809 Receipt
2008-30-072      Books and Timely Transmitted Remittances for Processing
2008-1C-043      Post-Award Accounting System Review
2008-1C-044      Report on Post-Award Accounting System Review
2008-1C-045      Report on Audit of Fiscal Year 2008 Forward Pricing Rates
                 Report on Compliance With Cost Accounting Standard 410, Allocation of Business Unit
2008-1C-046      General and Administrative Expenses to Final Cost Objectives
2008-1C-050      Report on Fiscal Year 2007 Labor Floor Checks
                 Processing of Carryback Loss Claims Needs to Be Improved to Ensure Taxpayers Receive
                 Accurate Refunds (Increased Revenue: $1,126,501 impacting 11 taxpayers; Taxpayer Rights
2008-40-062      and Entitlements: $732,941 impacting 9 taxpayers)
                 The Internal Revenue Service Needs to Emphasize Limited Use of a Collection Suspension
2008-30-060      Code That Can Allow Inappropriate Refunds
2008-20-061      Disaster Recovery Issues Have Not Been Effectively Resolved, but Progress Is Being Made
            March 2008
2008-20-053    The Account Management Services Project Is Meeting Its Development Goals
               The Published Guidance Program Needs Additional Controls to Minimize Risks and Increase
2008-10-075    Public Awareness
2008-20-076      Improvements Are Needed to the Information Security Program Governance Process
                 A More Strategic Approach Could Enhance the Workers’ Compensation Program Return-to-
2008-30-056      Work Efforts
                 Performance Measures and Improved Case Tracking Would Help the Exempt Organizations
2008-10-057      Function Better Allocate Resources (Reliability of Information: 63 cases inaccurate cases)
2008-20-077      Actions Are Needed to Improve the Effectiveness of the Physical Security Program
2008-1C-063      Report on Post-Award Accounting System Review
                 Noncompliance With Cost Accounting Standard 401, Consistency in Estimating,
2008-1C-064      Accumulating, and Reporting Costs
                 Report on Audit of Direct Costs for TIRNO-00-D-00014 and TIRNO-06-D-00026
2008-1C-066      (Questioned Costs: $160,186)
2008-1C-067      Results of Evaluation of Fiscal Year 2003 Cumulative Allowable Costs Worksheets
2008-1C-065      Incurred Costs Audit for Fiscal Year Ended March 31, 2004
                 Controls and Performance Measures for the Records Management Program Need to Be
2008-10-073      Improved
                 Increasing Federal and State Cooperation and Promoting Electronic Filing Would Improve
                 Administration of Taxes Used to Maintain the Nation’s Highways (Taxpayer Burden:
2008-40-089      Encouraging the Alternate Proof of Payment option would benefit 571,936 taxpayers)




TIGTA Semiannual Report to Congress              53           October 1, 2007 through March 31, 2008
                                    

                                                 



                Outreach Has Improved, but More Action Is Needed to Effectively Address Employment-
                Related and Tax Fraud Identity Theft (Increased Revenue: $2.2 million; Taxpayer Burden:
2008-40-086     1,329 taxpayers receiving unnecessary contacts)
                Inadequate Security Controls Over Routers and Switches Jeopardize Sensitive Taxpayer
2008-20-071     Information
2008-20-078     Private Collection Agencies Adequately Protected Taxpayer Data
                Fiscal Year 2008 Statutory Review of Compliance With Lien Due Process Procedures
                (Taxpayer Rights and Entitlements: 76,984 notices untimely mailed, proof of mailing not
                located or not sent to authorized representatives and notices not sent to 2 taxpayers; Taxpayer
2008-30-082     Privacy and Security: 9,057 notices sent to unauthorized representatives)
2008-40-090     Fiscal Year 2008 Statutory Review of Restrictions on Directly Contacting Taxpayers
                Individual Retirement Account Contributions and Distributions Are Not Adequately
                Monitored To Ensure Tax Compliance (Increased Revenue: $52.2 million impacting
2008-40-087     51,114 taxpayers)
                Procurement’s Control Environment Was Ineffective and Did Not Prevent Overpayments to
                Contractors (Reliability of Information: Corrective actions valued at $41,432 were closed
2008-10-092     before ensuring that questionable charges were recovered)
                The Internal Revenue Service’s Federal Financial Management Improvement Act
2008-10-096     Remediation Plan As of December 31, 2007
                Fiscal Year 2008 Statutory Review of Disclosure of Collection Activity With Respect to
2008-40-099     Joint Returns
2008-40-100     Interim Results of the 2008 Filing Season




TIGTA Semiannual Report to Congress              54           October 1, 2007 through March 31, 2008
                                             




                APPENDIX III
             TIGTA’S STATUTORY
          REPORTING REQUIREMENTS
TIGTA issued 11 audit reports required by statute dealing with the adequacy and security of IRS
technology during this reporting period. In FY 2008, TIGTA will complete its tenth round of statutory
reviews that are required annually by the IRS Restructuring and Reform Act of 1998 (RRA 98). TIGTA
will also complete its annual review of the Federal Financial Management Improvement Act of 1996 and
the Office of National Drug Control Policy Detailed Accounting Submission and Assertions. The
following table reflects the FY 2008 statutory reviews.


      Reference to                Explanation of the
   Statutory Coverage                 Provision                           Comments/TIGTA Audit Status
Enforcement Statistics           Requires TIGTA to               Audit in report writing phase.
                                 evaluate the IRS’
                                 compliance with
Internal Revenue Code (I.R.C.)   restrictions under section
                                 1204 of RRA 98 on the use
§ 7803(d)(1)(A)(i)               of enforcement statistics to
                                 evaluate IRS employees.



Restrictions on Directly         Requires TIGTA to               Reference No. 2008-40-090, March 2008
Contacting Taxpayers             evaluate the IRS’
                                 compliance with restrictions    The IRS’ Internal Revenue Manual provides employees
                                 under I.R.C. § 7521 on          guidance to help ensure compliance with the direct contact
                                 directly contacting taxpayers   provisions of the I.R.C. In addition, the IRS has informed
I.R.C.                                                           taxpayers of these rights through various IRS publications.
                                 who have indicated they
§ 7803(d)(1)(A)(ii)              prefer their representatives    However, this is the tenth year that TIGTA could not
                                 be contacted.                   determine whether IRS employees followed proper
                                                                 procedures to stop an interview if the taxpayer requested to
                                                                 consult with a representative. Neither TIGTA nor the IRS
                                                                 could readily identify cases in which a taxpayer requested a
                                                                 representative or the IRS contacted the taxpayer directly and
                                                                 improperly bypassed the representative. IRS management
                                                                 information systems do not separately record or monitor
                                                                 direct contact requirements, and there is no legal requirement
                                                                 for the IRS to do so. TIGTA does not recommend the
                                                                 creation of a separate tracking system.




TIGTA Semiannual Report to Congress                      55             October 1, 2007 through March 31, 2008
                                          

                                                         




      Reference to              Explanation of the
   Statutory Coverage               Provision                          Comments/TIGTA Audit Status

Filing of a Notice of Lien     Requires TIGTA to              Reference No. 2008-30-082, March 2008
                               evaluate the IRS’              The IRS may not have complied with the law in all cases.
I.R.C.                         compliance with required       TIGTA’s review of a statistically valid sample of
§ 7803(d)(1)(A)(iii)           procedures under I.R.C.        150 Federal Tax Lien cases identified 145 cases (97 percent)
                               § 6320 upon the filing of a    for which the IRS did mail lien notices correctly and in a
                               notice of lien.                timely manner, as required by
                                                              I.R.C. § 6320 and internal procedures. For the other five lien
                                                              notices (three percent), we could not determine if the law
                                                              was complied with because the IRS could not provide proof
                                                              of mailing.

                                                              When an initial lien notice is returned because it could not be
                                                              delivered and a different address is available for the
                                                              taxpayer, the IRS does not always meet its statutory
                                                              requirement to send the lien notice to the taxpayer’s
                                                              last known address. For 29 (seven percent) of 400 cases,
                                                              employees did not research IRS computer systems for
                                                              different addresses. For 104 (26 percent) of the
                                                              400 cases, the research was not performed within
                                                              five business days. TIGTA also identified two cases for
                                                              which a new lien notice should have been sent to the
                                                              taxpayer at the updated address because the IRS systems
                                                              listed the address prior to the lien filing. These two cases
                                                              could involve legal violations because the IRS did not meet
                                                              its statutory requirement of sending lien notices to the
                                                              taxpayer’s last known address.

                                                              Also, the IRS did not always follow its own internal
                                                              guidelines for notifying taxpayer representatives of the filing
                                                              of lien notices. For 12 (40 percent) of the 30 cases in which
                                                              the taxpayer had an authorized representative at the time of
                                                              the lien actions, the IRS did not notify the taxpayer’s
                                                              representative of the lien filing. In addition, in two cases, it
                                                              sent notifications to representatives not authorized to receive
                                                              such information.


Extensions of the Statute of   Requires TIGTA to              Audit fieldwork in progress.
Limitations for Assessment     include information
of Tax                         regarding extensions of the
                               statute of limitations for
I.R.C.                         assessment of tax under
§ 7803(d)(1)(C)                I.R.C. § 6501 and the
                               provision of notice to
I.R.C.                         taxpayers regarding the
§ 6501(c)(4)(B)                right to refuse or limit the
                               extension to particular
                               issues or a particular
                               period of time.




TIGTA Semiannual Report to Congress                     56            October 1, 2007 through March 31, 2008
                                              




      Reference to                 Explanation of the
   Statutory Coverage                  Provision                           Comments/TIGTA Audit Status

Levies                            Requires TIGTA to               Audit in report writing phase.
                                  evaluate the IRS’
I.R.C.                            compliance with required
§ 7803(d)(1)(A)(iv)               procedures under I.R.C.
                                  § 6330 regarding levies.


Collection Due Process            Requires TIGTA to               Audit fieldwork in progress.
                                  evaluate the IRS’
I.R.C.                            compliance with required
§ 7803(d)(1)(A)(iii) and (iv)     procedures under I.R.C.
                                  §§ 6320 and 6330 regarding
                                  the taxpayers’ rights to
                                  appeal lien or levy actions.


Seizures                          Requires TIGTA to               Audit in report writing phase.
                                  evaluate the IRS’
I.R.C.                            compliance with required
§ 7803(d)(1)(A)(iv)               procedures under I.R.C.
                                  §§ 6330 through 6344 when
                                  conducting seizures.


Taxpayer Designations – Illegal   An evaluation of IRS’           Audit fieldwork in progress.
Tax Protester Designation and     compliance with
Nonfiler Designation              restrictions under
                                  section 3707 of RRA 98 on
I.R.C.                            designation of taxpayers.
§ 7803(d)(1)(A)(v)



Disclosure of Collection          Requires TIGTA to review        Reference No. 2008-40-099, March 2008
Activities With Respect to        and certify whether the IRS     IRS procedures provide employees sufficient guidance for
Joint Returns                     is complying with I.R.C.        handling joint filer collection activity information requests.
                                  § 6103(e)(8) to disclose        However, this is the tenth year that TIGTA could not
I.R.C.                            information to an individual    determine whether the IRS is complying with the statutory
§ 7803(d)(1)(B)                   filing a joint return on        requirements for responding to written collection activity
                                  collection activity involving   information requests from joint filers. IRS management
I.R.C.                            the other individual filing     information systems do not separately record or monitor
§ 6103(e)(8)                      the return.                     joint filer requests, and there is no legal requirement for the
                                                                  IRS to do so. TIGTA does not recommend the creation of a
                                                                  separate tracking system.


Taxpayer Complaints               Requires TIGTA to include       Statistical results on the number of taxpayer complaints
                                  in each of its Semiannual       received are shown on page 41 of this report.
I.R.C.                            Reports to Congress the
§ 7803(d)(2)(A)                   number of taxpayer
                                  complaints received and the
                                  number of employee
                                  misconduct and taxpayer
                                  abuse allegations received
                                  by IRS or TIGTA from
                                  taxpayers, IRS employees
                                  and other sources.




TIGTA Semiannual Report to Congress                        57             October 1, 2007 through March 31, 2008
                                               

                                                             




      Reference to                  Explanation of the
   Statutory Coverage                   Provision                          Comments/TIGTA Audit Status

Administrative or Civil Actions    Requires TIGTA to include       Audit fieldwork in progress.
With Respect to the Fair Tax       information regarding any
Collection Practices Act of 1996   administrative or civil
                                   actions with respect to
I.R.C.                             violations of the fair debt
§ 7803(d)(1)(G)                    collection provision of
                                   I.R.C. § 6304, including a
I.R.C.                             summary of such actions,
§ 6304                             and any resulting judgments
Section 3466 of RRA 98             or awards granted.



Denial of Requests for             Requires TIGTA to include
Information                        information regarding
                                                                   Audit fieldwork in progress.
                                   improper denial of requests
I.R.C.                             for information from the
§ 7803(d)(1)(F)                    IRS, based on a statistically
                                   valid sample of the total
I.R.C.                             number of determinations
§ 7803(d)(3)(A)                    made by the IRS to deny
                                   written requests to disclose
                                   information to taxpayers on
                                   the basis of I.R.C. § 6103 or
                                   5 U.S.C. § 552(b)(7).


Adequacy and Security of the       Requires TIGTA to evaluate      Information Technology Reviews:
Technology of the IRS              the IRS’ adequacy and           Reference Number 2008-20-002, November 2007
                                   security of its technology.     Reference Number 2008-20-028, January 2008
I.R.C.                                                             Reference Number 2008-20-053, March 2008
§ 7803(d)(1)(D)
                                                                   Security Reviews:
                                                                   Reference Number 2008-20-026, November 2007
                                                                   Reference Number 2008-20-029, December 2007
                                                                   Reference Number 2008-20-030, December 2007
                                                                   Reference Number 2008-20-061, February 2008
                                                                   Reference Number 2008-20-071, March 2008
                                                                   Reference Number 2008-20-076, March 2008
                                                                   Reference Number 2008-20-077, March 2008
                                                                   Reference Number 2008-20-078, March 2008


Federal Financial Management       Requires TIGTA to evaluate      Reference No. 2008-10-096, March 2008
Improvement Act of 1996            the financial management        TIGTA determined that no intermediate target dates were
(FFMIA)                            systems to ensure               missed on the 35 open remedial actions. However, the
                                   compliance with Federal         IRS extended target dates related to
31 U.S.C. § 3512                   requirements, or                ten (29 percent) of the 35 open remedial actions. The
                                   establishment of a              extensions ranged from 6 months to 18 months.
                                   remediation plan with           Although the IRS has reasonable explanations for the
                                   resources, remedies, and        extended dates, these delays further hinder the IRS’
                                   intermediate target dates to    ability to address its noncompliance with the FFMIA in a
                                   bring the IRS into              timely manner. In addition, the IRS is still in the process
                                   substantial compliance.         of updating the remediation plan with specific actions to
                                                                   develop timely and reliable cost accounting information.




TIGTA Semiannual Report to Congress                         58            October 1, 2007 through March 31, 2008
                                            




      Reference to                  Explanation of the
   Statutory Coverage                   Provision                       Comments/TIGTA Audit Status

Office of National Drug            Requires TIGTA to            Reference No. 2008-10-058, January 2008
Control Policy Detailed            authenticate the IRS’        TIGTA determined that the IRS’ FY 2007 ONDCP
Accounting Submission and          Office of National Drug      detailed accounting submission and performance
Assertions                         Control Policy (ONDCP)       summary report was clearly explained and adequately
                                   detailed accounting          documented. However, in TIGTA’s opinion, the
National Drug Enforcement          submission and assertions.   performance measure reported by the IRS could be
Policy 21 U.S.C. § 1704(d) and                                  improved to better represent the IRS’ contribution to the
the Office of National Drug                                     National Drug Control Strategy. Specifically, by
Control Policy Circular entitled                                reporting only the number of ONDCP-related
Annual Accounting of Drug                                       investigations completed, the IRS is providing very little
Control Funds, dated                                            information on the effectiveness of its efforts.
April 18, 2003.




TIGTA Semiannual Report to Congress                      59            October 1, 2007 through March 31, 2008
                      

                                      




TIGTA Semiannual Report to Congress   60     October 1, 2007 through March 31, 2008
                                      




              APPENDIX IV
        SECTION 1203 STANDARDS
In general, the Commissioner of Internal Revenue shall terminate the employment of any IRS employee if
there is a final administrative or judicial determination that, in the performance of official duties, such
employee committed any misconduct violations outlined below. Such termination shall be a removal for
cause on charges of misconduct.

Misconduct violations include:
    •   Willfully failing to obtain the required approval signatures on documents authorizing the seizure of
        a taxpayer’s home, personal belongings, or business assets;
    •   Providing a false statement under oath with respect to a material matter involving a taxpayer or
        taxpayer representative;
    •   Violating, with respect to a taxpayer, taxpayer representative, or other employee of the IRS, any
        right under the Constitution of the United States, or any civil right established under Title VI or VII
        of the Civil Rights Act of 1964; Title IX of the Education Amendments of 1972; Age
        Discrimination in Employment Act of 1967; Age Discrimination Act of 1975; Section 501 or 504
        of the Rehabilitation Act of 1973; or Title I of the Americans with Disabilities Act of 1990;
    •   Falsifying or destroying documents to conceal mistakes made by any employee with respect
        to a matter involving a taxpayer or taxpayer representative;
    •   Committing assault or battery on a taxpayer, taxpayer representative, or other employee of
        the IRS, but only if there is a criminal conviction or a final judgment by a court in a civil
        case, with respect to the assault or battery;
    •   Violating the Internal Revenue Code of 1986, Treasury regulations, or policies of the IRS
        (including the Internal Revenue Manual) for the purpose of retaliating against, or harassing a
        taxpayer, taxpayer representative, or other employee of the IRS;
    •   Willfully misusing provisions of Section 6103 of the Internal Revenue Code of 1986 for the
        purpose of concealing information from a congressional inquiry;
    •   Willfully failing to file any return of tax required under the Internal Revenue Code of 1986 on or
        before the date prescribed therefore (including any extensions), unless such failure is due to
        reasonable cause and not to willful neglect;
    •   Willfully understating Federal tax liability, unless such understatement is due to reasonable cause
        and not to willful neglect; and
    •   Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the misconduct
violations outlined above. The exercise of this authority shall be at the sole discretion of the
Commissioner and may not be delegated to any other officer. The Commissioner, in his/her sole
discretion, may establish a procedure that will be used to determine whether an individual should be
referred to the Commissioner for determination. Any mitigation determination by the Commissioner
in these matters may not be appealed in any administrative or judicial proceeding.




TIGTA Semiannual Report to Congress                 61           October 1, 2007 through March 31, 2008
                      

                                      




TIGTA Semiannual Report to Congress   62     October 1, 2007 through March 31, 2008
                           




               APPENDIX V
          DATA TABLES PROVIDED
                BY THE IRS
The memorandum copied below is the IRS transmittal to TIGTA. The tables that follow the
memorandum contain information as provided by the IRS to TIGTA and consist of IRS
employee misconduct reports from the IRS Automated Labor and Employee Relations
Tracking System (ALERTS) for the period from October 1, 2007, to March 31, 2008. Also,
data concerning substantiated I.R.C. § 1203 allegations for the same period are included.
IRS management conducted inquiries into the cases reflected in these tables.




TIGTA Semiannual Report to Congress       63        October 1, 2007 through March 31, 2008
                                            

                                                          




  REPORT OF EMPLOYEE MISCONDUCT FOR THE PERIOD
     OCTOBER 01, 2007 THROUGH MARCH 31, 2008
         SUMMARY BY DISPOSITION GROUPS
            (TABLE PROVIDED BY THE IRS)
                                                                           Employee
                                                                             Tax
                                   TIGTA             Administrative         Matter          Background
        Disposition             Investigations          Cases               Cases          Investigations       Total
  Removal                                      54                    62             10                     2       128
  Separation of
  Probationary Employees                        3                    80              4                    12       99
  Separation of Temporary
  Employees                                     1                     4              8                     2       15
  Resignation/Retirement                       76                   122             59                    16      273
  Suspensions                                124                    223             92                     8      447
  Reprimands                                 141                    427            462                    25     1,055
  Counseling                                                        243          1,110                    43     1,396
  Alternative Discipline                       24                    83             25                     3      135
  Clearance                                    83                   137             14                            234
  Closed Without Action                      233                    250            133                   147      763
  Closed Without Action
  (Caution Statement)                        142                    128             97                   101      468
  Forwarded to TIGTA                                                 12                                    1       13
  Suspended – Waiting
  Supplemental                                                        1                                             1
  Termination for
  Abandonment of Position                                            20                                            20
  Forwarded to OPM for
  MIF                                                                                                     18       18
  Case Suspended Pending
  Employee Return To
  Duty                                          3                                    2                     2        7
  Prosecution Pending for
  TIGTA ROI’s                                   8                                                                   8
                      Total                  892                 1,792          2,016                   380      5,080
Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order
115-01, January 14, 1999

Extract Date: Tuesday, April 01, 2008     Report ID = T1R3a




    TIGTA Semiannual Report to Congress                  64           October 1, 2007 through March 31, 2008
                                       




     REPORT OF EMPLOYEE MISCONDUCT FOR THE
              PERIOD OCTOBER 01, 2007
             THROUGH MARCH 31, 2008
                NATIONAL SUMMARY
            (TABLE PROVIDED BY THE IRS)

                                                                     Cases Closed
                                        Conduct                                        Non-
                      Opening            Cases         Conduct                        Conduct         Closing
  Case Type          Inventory          Received        Issues        Duplicates       Cases         Inventory

 TIGTA
 Investigations
 ROI1                          532              844          (892)              (5)           (0)               479
 Administrative
 Case2                         759           1,970         (1,792)             (22)           (6)               909
 Employee Tax
 Compliance
 Case3                         879           2,004         (2,016)             (72)           (0)               795
 Background
 Investigations4               156             345           (380)              (2)           (0)               119

          Total             2,326            5,163         (5,080)           (101)            (6)          2,302

Source: Automated Labor and Employee Relations Tracking System (ALERTS)

This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order
115-01, January 14, 1999

Extract Date: Tuesday, April 01, 2008        Report ID = T1R1




1
   TIGTA Investigations - Any matter involving an employee in which TIGTA conducted an investigation into
alleged misconduct and referred a Report of Investigation (ROI) to IRS for appropriate action.
2
   Administrative Case - Any matter involving an employee in which management conducted an inquiry into
alleged misconduct.
3
   Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance
program which becomes a matter of official interest.
4
   Background Investigation - Any matter involving an NBIC investigation into an employee’s background that
is referred to management for appropriate action.




TIGTA Semiannual Report to Congress                   65          October 1, 2007 through March 31, 2008
                                            

                                                           




                    SUMMARY OF SUBSTANTIATED
          I.R.C. § 1203 ALLEGATIONS RECORDED IN ALERTS
            FOR THE PERIOD OCTOBER 01, 2007 THROUGH
            MARCH 31, 2008 (TABLE PROVIDED BY THE IRS)


                                                                          Removed                           In
                                          Resigned/     Probation/        On Other       Penalty         Personnel
  § 1203 Violation         Removals1       Retired      Separation        Grounds       Mitigated1        Process        Total
 Seizure Without
 Approval                           0               0               0               0               0                0       0
 False Statement
 Under Oath                         0               0               0               0               0                0       0
 Constitutional & Civil
 Rights Issues                      0               0               0               0               0                1       1
 Falsifying or
 Destroying Records                 1               3               0               0               0                0       4
 Assault or Battery                 0               0               0               0               0                0       0
 Retaliate or Harass                0               0               0               0               0                0       0
 Misuse of §6103
                                    0               0               0               0               0                0       0
 Failure to File Federal
 Tax Return                         4               5               1               5             26             37         78
 Understatement of
 Federal Tax Liability             13               9               0               2             29             35         88
 Threat to Audit for
 Personal Gain                      0               0               0               0               0                0       0

                Totals             18              17               1               7             55             73        171
Source: Automated Labor and Employee Relations Tracking System (ALERTS) and § 1203 Review Board
records.
Extract Date: Wednesday, April 02, 2008




      1
       The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third-party
      appeal.


      TIGTA Semiannual Report to Congress                 66            October 1, 2007 through March 31, 2008
